<html>
<title> - OPEN HEARING: NOMINATION OF GINA HASPEL TO BE THE DIRECTOR OF THE CENTRAL INTELLIGENCE AGENCY</title>
<body><pre>[Senate Hearing 115-302]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-302

                OPEN HEARING: NOMINATION OF GINA HASPEL
                   TO BE THE DIRECTOR OF THE CENTRAL
                          INTELLIGENCE AGENCY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         WEDNESDAY, MAY 9, 2018

                               __________

      Printed for the use of the Select Committee on Intelligence


        Available via the World Wide Web: http://www.govinfo.gov
                   
                   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-119 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d1c6d9f6d5c3c5c2ded3dac698d5d9db98">[email&#160;protected]</a>                    
                   
                   
                   
                   
                   
                   
                   SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                                CONTENTS

                              ----------                              

                              MAY 9, 2018

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Mark R., Vice Chairman, a U.S. Senator from Virginia.....     3

                               WITNESSES

Chambliss, Saxby, former U.S. Senator from Georgia...............     5
Bayh, Evan, former U.S. Senator from Indiana.....................     7
Haspel, Gina, nominated to be Director of Central Intelligence...     9
    Prepared statement...........................................    14

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees............    50
Additional Prehearing Questions..................................    63
Questions for the Record.........................................   128
Disciplinary Review Related to Destruction of Interrogation Tapes 
  Memo (the Morell Memo).........................................   204
Former CIA Officers..............................................   212
Former Senior National Security Officials........................   216
Former Ambassadors...............................................   221
Retired General and Flag Officers................................   228
Human Rights Watch...............................................   232
The Center for Victims of Torture................................   236
National Council of Churches.....................................   237
NC Stop Torture Now..............................................   239
T'ruah: The Rabbinic Call for Human Rights.......................   240
Laura Pitter Op-Ed, Senior National Security Counsel, Human 
  Rights Watch...................................................   249
Steven Cash......................................................   252
National Catholic Advocacy Organizations.........................   257
September 11th Families for Peaceful Tomorrows...................   259
Human Rights Coalition...........................................   260

 
                    OPEN HEARING: NOMINATION OF GINA
                    HASPEL TO BE THE DIRECTOR OF THE
                      CENTRAL INTELLIGENCE AGENCY

                              ----------                              


                         WEDNESDAY, MAY 9, 2018

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:38 a.m. in Room 
SH-219, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Senators Burr, Warner, Risch, Rubio, Collins, 
Blunt, Lankford, Cotton, Cornyn, Feinstein, Wyden, Heinrich, 
King, Manchin, Harris, and Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order. I'd 
like to say at the beginning of this hearing it is the 
tradition of this committee to have nominees in front of us in 
open and closed session. It's also incumbent on those who 
attend in the audience that they recognize the order that we 
expect. The Chair would announce now, I will not be lenient. If 
there are outbursts, you will be cleared from the room and it 
will be done immediately. So for the benefit of members and for 
the benefit of our witnesses, if you're going to do it, do it 
fast, do it early, and be gone.
    I'd like to welcome our witness today, Acting Director of 
the Central Intelligence Agency, Ms. Gina Haspel. Gina, 
congratulations on your nomination.
    Our goal in conducting this hearing is to enable the 
committee to begin consideration of Ms. Haspel's qualifications 
and to allow for thoughtful deliberation by all members. She's 
already provided substantive written responses to more than 100 
questions presented by the committee and its members. Today, of 
course, members will be able to ask additional questions and to 
hear from Ms. Haspel in open and closed session.
    Gina, you've been asked to lead what I believe is one of 
our most treasured assets in this Nation during a period of 
profound change. The Central Intelligence Agency is one of the 
principal members of the United States intelligence community 
and is tasked with collecting foreign intelligence through 
human sources and by appropriate other means.
    The CIA operates in the shadows. Its officers are often 
undercover and sometimes work in hostile and austere 
environments. It's not simply a job for many, but it's a 
lifestyle, one that you have lived honorably for more than 30 
years.
    The clandestine nature of the Agency's work, however, is 
both its greatest capability and its most challenging 
liability, as its activities are outside the public view. We 
address that liability by calling upon the President to 
nominate individuals with unwavering integrity, and the Senate 
approves only those who we are assured will lead this 
organization lawfully, ethically, and morally.
    Gina Haspel was born in Kentucky, the oldest of five 
children, where she returned after attending high school in 
England. She originally told her father, who served in the 
United States Air Force, that she wanted to attend West Point, 
only to be gently reminded that West Point at the time did not 
admit women.
    That didn't dilute her sense of service and, after 
graduating from the University of Kentucky, Gina went on to 
work as a contractor with the Tenth Special Forces Group. It 
was in Fort Devon that Gina learned about the CIA, a place 
where she could serve along with other women doing clandestine 
work around the world.
    Since her departure in 1985, Gina has developed an 
extensive overseas experience and served as chief of station in 
many locations. In Washington, she's held numerous senior 
leadership positions, including Deputy Director, Deputy 
Director of National Clandestine Service.
    Gina, I've reviewed the material provided by you and have 
spoken to you personally many times. I believe your 
intellectual rigor, your honorable service, and outstanding 
judgment make you a natural fit to lead the CIA.
    I can assure you that this committee will continue to 
faithfully follow its charter and conduct vigorous and real-
time oversight over CIA's operations and activities. We will 
ask difficult and probing questions of you and your staff, and 
we will expect honest, complete, and timely responses. The 
American people allow the CIA to operate in the shadows because 
they have a trust in oversight and I take that responsibility 
seriously.
    Now, some may seek to turn this nomination into a trial 
about a long-shuttered program. I'd like to set the record 
straight and make clear to those in attendance and the American 
people that this hearing's about--this hearing's not about 
programs already addressed by executive order, legislation, and 
a court of law. It's about the woman seated in front of us.
    Gina, I've reviewed your records closely. I've read your 
detailed and thoughtful answers to the committee's prehearing 
questions, and I've spoken with you many times over the years. 
You are without a doubt the most qualified person the President 
could have chosen to lead the CIA and the most prepared nominee 
in its 70-year history. You have acted morally, ethically, and 
legally over a distinguished 30-plus year career. You have 
operated under authorities signed and granted by the President 
of the United States, at the direction of the Director of the 
Central Intelligence Agency, and according to the legal 
guidance provided by the Attorney General of the United States.
    Those who have issues with programs or operations conducted 
years ago should address those concerns and their questions to 
former Presidents, former Directors, and former Attorney 
Generals. This hearing is about how you will lead the Central 
Intelligence Agency into the future, not how you faithfully 
executed missions in the past.
    Moreover, you conducted yourself in such a way that your 
supervisors have uniformly praised your conduct over your 
lengthy career. Those supervisors commended you for frankness, 
firmness, and fairness, your moral courage, your integrity, 
your operational judgment and professional presence. They have 
commented on your leadership skills and success in creating a 
more inclusive and fair workplace, and admired your operating 
at great personal risk to collect intelligence necessary to 
keep America safe.
    Gina, you have the unique experience one only gains from 
growing up in the CIA. You have the moral strength to speak 
truth to power. You have learned from the past mistakes of your 
organization and made clear they will not be repeated.
    In the days after 2001, you did not just talk about what 
should be done, you personally volunteered to help with CIA's 
response to attacks. You dared to step into the arena when our 
country needed you, and you have done so again today. For that, 
I am eternally grateful.
    I look forward to supporting your nomination and to 
ensuring its consideration without delay. I want to thank you 
for your willingness to serve your country, for your years of 
service, and I look forward to your testimony.
    I now recognize the Vice Chairman for any comments he might 
make.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. I'd like to 
join you in welcoming Ms. Haspel.
    Gina, it's nice to see you again and congratulations on 
your nomination. The position of Director of the Central 
Intelligence Agency is one of the most important in our 
government. The CIA Director serves as a key figure in our 
intelligence community. He or she leads the premier human 
intelligence agency in the world, the largest all-source 
analysis workforce in the intelligence community.
    The CIA Director is responsible for providing the 
intelligence that informs policymakers working on every major 
national security and foreign policy problem facing our 
country. As former Director Pompeo's recent trip to North Korea 
demonstrated, the Director can also be tasked with unusual 
diplomatic missions. Directors also represent the face of the 
U.S. intelligence community to the entire world and they should 
be qualified for that task.
    Gina Haspel is among the most experienced people to be 
nominated for the position of Director of the CIA. While I 
remain disappointed that the Agency was not more forthcoming in 
providing and declassifying information about her service, she 
has served our Nation for 33 years in a variety of roles all 
over the world.
    I also understand that Ms. Haspel is the first operations 
officer in more than five decades who has been nominated to 
lead the Agency. And, as we see with some of the folks who are 
here, I know she enjoys broad support within its workforce.
    But many people, and I include myself in that number, have 
questions about the message the Senate would be sending by 
confirming someone for this position who served as a supervisor 
in the Counterterrorism Center during the time of rendition, 
detention, and interrogation programs. Ms. Haspel has 
acknowledged the history of the program. She stated that the 
law has changed and the RDI program is no longer legal. She is 
committed to upholding the law. I appreciate that, but it is 
not enough. The secrecy inherent in the CIA's work demands that 
the Director honor and follow the law, particularly in the dark 
spaces where the IC often operates and where the glaring light 
of public scrutiny is nonexistent. No one should get credit for 
simply agreeing to follow the law. That's the least we should 
expect from any nominee and certainly from the Director of the 
CIA.
    For those in the chamber who have argued that no one who 
participated in the RDI program should ever be promoted--I know 
there are some who feel that--and while I have expressed on 
many occasions my own objections to the RDI program, I think we 
have to recognize at that time, the country had just been 
attacked. People throughout the government were frightened of 
more imminent attacks and did not know what to do, and the RDI 
program was absolutely an outgrowth of that fear. There are 
many at the Agency who participated in the program who believed 
that what they were doing was both legal and authorized by the 
then-President.
    What I'm not willing to do, however, is to justify this 
dark period in our history or to sweep away the decision to 
engage in torture. I believe the RDI program was wrong and we 
need to make sure it never happens again.
    Ms. Haspel, what the committee must hear and what I must 
hear is in your own view of the RDI program today, given the 
benefit of time and hindsight, should the United States ever 
permit detainees to be treated the way the CIA treated 
detainees under the program, even if you believed it was 
technically legal? Most importantly, in your view was that 
program consistent with American values?
    We must hear how you would react if the President asked you 
to carry out some morally questionable behavior that might seem 
to violate a law or treaty. How will you respond if a secret 
DOJ opinion authorizes such behavior and gives you a quote, 
``Get Out of Jail Free Card''? On that day, if ordered to take 
such actions that are inconsistent with American values, will 
you say yes and follow the orders? Will you keep Congress in 
the dark?
    Ms. Haspel, I encourage you to take these issues seriously 
and to address them at length. My vote on your confirmation 
will be greatly influenced by how you address these questions 
today.
    I know the committee and I in particular would want to hear 
about also your interaction with respect to the 2005 decision 
to destroy the CIA interrogation tapes. What role did you play? 
And if given the chance, would you do it again?
    In the same vein, I would like to know your views from that 
time on about informing Congressional leadership. Given the 
necessary secrecy of the Agency's activities, it is fundamental 
to our system of checks and balances that you be extremely 
forthcoming with this committee, with the Chairman, and with me 
as Vice Chairman. I expect you to look for reasons to read us 
in rather than looking for excuses to keep us out of the loop.
    Ms. Haspel, you should consider carefully how you might 
deal with morally questionable requests in the future. If 
confirmed, you will face a White House and frankly, in my 
belief, a President who does not always seem interested in 
hearing, much less speaking, the truth. The President seems 
incapable or unwilling to accept the facts that might 
contradict his views or his policy preferences. Indeed, there 
have been some in this Administration, even some in the 
President's own appointees, who have been attacked for telling 
a truth in public that contradicts the White House narrative. 
You simply cannot allow the prospects of such attacks from 
dissuading you of speaking truth to power. I am interested to 
know how you view your relationship with the President and how 
you will approach encouraging him and engaging with him.
    We have seen on many occasions that this President has no 
qualms about completely circumventing members of his own 
Administration, even when making policy that falls within their 
agencies' jurisdictions. At the end of the day, do you believe 
you'll be in the room when it matters? And if you're in the 
room, will the President listen to you when you tell him 
something is a bad idea?
    Finally, Ms. Haspel, I will end with what I hope is an 
easy, but critical, request. As you know, this committee 
continues its investigation into Russian interference in the 
2016 election. I will expect your commitment to continuing 
cooperation with us and with the Mueller investigation in the 
future. I hope you will agree that it is critical that both of 
these investigations be permitted to proceed independently and 
completely towards their own conclusions without White House 
interference.
    Gina, again congratulations on your nomination and for your 
very important work on behalf of our country.
    Thank you, Mr. Chairman. I yield back.
    Chairman Burr. I thank the Vice Chairman.
    It's now an honor to recognize two of our former 
colleagues. Welcome to each of you, and I will recognize 
Senator Chambliss and then Senator Bayh for their 
introductions.
    Senator Chambliss.

 STATEMENT OF SAXBY CHAMBLISS, FORMER U.S. SENATOR FROM GEORGIA

    Senator Chambliss. Thank you, Mr. Chairman, and to you, 
Vice Chairman Warner, distinguished members of the committee. 
It's an honor for me to be here with you today along with my 
dear friend and former colleague Senator Bayh and also with our 
mutual friend Gina Haspel, obviously President Trump's nominee 
to be the leader at the CIA.
    It's hard to believe it's been a little over three years 
since I sat on your side of the dais and, while I miss my 
personal relationship with each one of you, I do not miss the 
daily decisions that you're having to make. But thank goodness 
all of you are here to do that.
    I've known and admired Gina Haspel for many years. In fact, 
I met her as a member of this committee, no doubt traveling to 
one of the many garden spots that CIA officers have been 
deployed around the globe. Gina is a consummate intelligence 
professional who is unwaveringly honest and objective, which is 
exactly the type of person we need leading the men and women of 
the CIA today.
    The world in which we live gets more complex each and every 
day. Today we're fighting terrorism on several different 
continents, major world powers like China and Russia are 
becoming increasingly more aggressive, the threats from rogue 
regimes, cyber attacks and weapons of mass destruction are 
increasing. All the while, the international cooperation and 
stability continue to deteriorate. The world in which we live 
needs experience at the helm of the CIA.
    Gina Haspel joined the CIA during the Cold War and has 
played a part in keeping our country safe ever since. She has 
served with distinction for over 30 years, working at almost 
every level of the National Clandestine Service. For her 
contribution, she's been awarded the Intelligence Medal of 
Merit, the George H.W. Bush Award for Excellence for 
Counterterrorism, the Donovan Award, and a Presidential Rank 
Award.
    Gina's nomination is also significant because, if 
confirmed, she would be the first female Director of the CIA in 
the Agency's history, an achievement that is long overdue 
considering the incredible contribution over the years that 
women have made to the mission at the CIA.
    Throughout her career at the CIA, Gina has held many 
leadership positions, but also taken on some of the most 
demanding and least rewarding assignments that the Agency has 
to offer. Gina joined the CIA's Counterterrorism Center in the 
wake of 9-11, putting herself at risk when her country needed 
her the most. As the committee well knows, these jobs require 
long hours, are nerve-racking, and come with great personal 
risk.
    It's difficult to talk about all of Gina's accomplishments 
over her 30-plus year career at the CIA in an open setting, but 
I know that each of you has reviewed her extensive record. Gina 
has been criticized in the press for some of her work done at 
the CIA's Counterterrorism Center. Frankly, I find this 
criticism very troubling. In 2011, as you all know, Mike Morell 
reviewed Ms. Haspel's conduct related to the CIA's destruction 
of the interrogation tapes and determined her actions to be 
appropriate and found no fault in the performance of her 
duties.
    We all have very strong feelings about the counterterrorism 
programs that the CIA carried out following 9-11. However, 
responsibility for these programs rests with the Commander in 
Chief and the senior leadership at the CIA, not Gina Haspel. 
When a CIA officer is carrying out authorities granted to them 
by the President, at the direction of their superiors, in a way 
that is determined to be lawful by the Attorney General, they 
should not be punished, period.
    I hope I've made the case for Gina, but I also hope you 
won't just take my word for it. Gina's nomination is being 
supported by a broad spectrum of national security 
professionals who have served in both Republican and Democratic 
administrations. Intelligence community leaders like Henry 
Kissinger, Jim Clapper, Bob Kerry, Mike McConnell, Mike Hayden, 
Leon Panetta, John Brennan, and many others. In today's 
political climate, I cannot name the last time that so many 
former intelligence professionals agreed on a single nominee.
    Everything I've said to this point is part of the public 
record and I now want to close by putting a personal touch on 
this nomination. During my 2 years on the HPSCI and 12 years on 
this committee, I traveled overseas extensively for the purpose 
of conducting oversight of the intelligence community. A lot of 
that travel was with Chairman Burr and with Senator Feinstein. 
With only a couple of obvious exceptions, we visited with the 
intelligence community personnel in every hot spot in the 
world. On several of those stops, we visited with Gina Haspel. 
Never were we less than significantly impressed by the 
leadership that Gina was giving to the Agency.
    Every member here knows the mission of the CIA, but I'd 
just like to say to the general public the written stated 
mission at the CIA, which is: to preempt threats and further 
U.S. national security objectives by collecting intelligence 
that matters; producing objective all-source analysis; 
conducting effective covert action as directed by the 
President; and safeguarding the secrets that help keep our 
Nation safe.
    No one is better prepared, more focused, or more capable to 
carry out that mission than is Gina Haspel. Mr. Chairman, Gina 
is a proven leader who knows the Agency and the threats we 
face. She is ideally suited to become the next and first female 
Director of the CIA. Everybody on this committee has an 
obligation to vet her nomination thoroughly and I know you 
will. But at the end of the day, I urge you to support her 
nomination and send it to the floor so that her nomination can 
be confirmed by the Senate of the United States.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Chambliss.
    Senator Bayh.

    STATEMENT OF EVAN BAYH, FORMER U.S. SENATOR FROM INDIANA

    Senator Bayh. Thank you, Chairman Burr, Vice Chairman 
Warner, members of the committee, former colleagues, and 
current friends. Let me begin by thanking each of you for your 
service and vital work performed in the Senate Select Committee 
on Intelligence. Senator Chambliss and I know firsthand the 
important responsibility each of you bears, and I'm sure I 
speak for millions of our fellow citizens when I thank you for 
carrying it out in such an exemplary manner.
    It's a pleasure to be with you again to introduce Gina 
Haspel. My connection to this committee, Mr. Chairman, is 
longstanding. In fact, my father Birch Bayh served on this 
panel when it was first created in the aftermath of the Church 
hearings, which documented the essential need for Congressional 
oversight of our intelligence community, a role this nominee 
strongly supports.
    My own decade of service on the Senate Select Committee on 
Intelligence, including with many of you, was, to say the 
least, eventful. Like today, we faced Russian hostility, 
Iranian regional ambitions, an expansionist China, an erratic 
North Korea, cyber threats, and much, much more.
    But unlike today, and thank God for that, on September 11, 
2001, we experienced a tragedy that indelibly defined those 
years when a group of suicidal fanatics killed almost 3,000 
innocent men, women, and children. It was the deadliest attack 
on our homeland in half a century.
    Who can forget the image of the Twin Towers falling? Who 
can forget the images of people leaping to their deaths to 
escape the flames? When would the next attack come? How many 
more Americans would die?
    Throughout it all, this committee was an oasis of 
bipartisanship--no Democrats, no Republicans, just Americans 
working together to protect our country. Gina Haspel has done 
and if confirmed, will do likewise.
    She is a lifelong intelligence professional, does not come 
from the world of politics, and may be the most nonpartisan 
individual ever nominated for Director of Central Intelligence. 
It is instructive that former DCIs of both parties endorse her 
nomination, including Leon Panetta, John Brennan, and Michael 
Hayden. Each of these men has been blunt in their criticism of 
some aspects of the current Administration, but all support 
Gina Haspel.
    Ms. Haspel, as has been noted, is without question the most 
qualified person ever nominated for this position. For 33 
years, she has worked to defend America from those who would 
harm us. She has served on the front lines and she has served 
with some who now are memorialized with gold stars on the wall 
in Langley, in tribute to their ultimate sacrifice. She knows 
the cost of freedom.
    She is a clear-eyed, hard-nosed expert on Russia at a time 
of mounting threats from that nation. And if confirmed, as 
Senator Chambliss noted, she would be the first woman to serve 
as DCIA, sending a clear message that advancement in the 
intelligence community is based on merit, not impeded by 
prejudice.
    Finally, she had the unenviable, weighty responsibility of 
protecting American lives during times of maximum danger, while 
also remaining true to our core values. As Senator Warner 
indicated, questions will be asked today, and they should be 
asked today, about whether the right decisions were always 
made. And you should probe deeply to determine whether, if 
mistakes occurred during that difficult time, were lessons 
learned, and whether the hard-won wisdom will inform our future 
conduct. Under a Director Haspel, I am confident it will.
    If approved by this panel and confirmed by the Senate, Gina 
Haspel will obey the rule of law. She has the experience and 
strength to speak truth to power. She's devoted to protecting 
Americans from those who would harm us and doing so consistent 
with our fundamental values, because she knows that it is those 
ideals that are our ultimate source of strength and those 
principles that make America the exceptional Nation she has 
sworn to defend.
    Thank you, Mr. Chairman. Thank you, Mr. Vice Chairman.
    Chairman Burr. Thank you, Senator Bayh.
    On behalf of the committee, I thank both of you for your 
service to the country and to your willingness to be here for 
the introduction. I would now excuse you from that table.
    Ms. Haspel, I'd ask you to stand and raise your right hand.
    Do you solemnly swear to give the committee the truth, the 
full truth, and nothing but the truth, so help you God?
    Ms. Haspel. I do.
    Chairman Burr. Thank you. Please be seated.

 TESTIMONY OF GINA HASPEL, NOMINATED TO BE DIRECTOR OF CENTRAL 
                          INTELLIGENCE

    Chairman Burr. Ms. Haspel, before we move to your 
statement, I'll ask you to answer five standard questions the 
committee poses to each nominee who appears before us. They 
just require a simple yes or no answer for the record.
    One: Do you agree to appear before the committee here or in 
any other venue when invited?
    Ms. Haspel. I do.
    Chairman Burr. Two: If confirmed, do you agree to send 
officials from your office to appear before the committee and 
designated staff when invited?
    Ms. Haspel. I do.
    Chairman Burr. Three: Do you agree to provide documents or 
any other materials requested by the committee in order to 
carry out its oversight and legislative responsibilities?
    Ms. Haspel. I do.
    Chairman Burr. Four: Will you both ensure that your office 
and your staff provide such materials to the committee when 
requested?
    Ms. Haspel. I will.
    Chairman Burr. And five: Do you agree to inform and fully 
brief to the fullest extent possible all members of the 
committee of intelligence activities and covert action, rather 
than only the Chair and the Vice Chairman?
    Ms. Haspel. I do.
    Chairman Burr. Thank you very much.
    We'll now proceed to your opening statement. Ms. Haspel, 
the floor is yours.
    Ms. Haspel. Thank you, Mr. Chairman. Chairman Burr, Vice 
Chairman Warner, and members of the committee: Thank you for 
the opportunity to appear before you today. I want to thank 
Senators Chambliss and Bayh for the kind words and support.
    I would also like to take just a moment to recognize a few 
guests who have come today, including: Principal Deputy 
Director of National Intelligence and my good friend, Sue 
Gordon; CIA Chief Operating Officer, Brian Bulatao; Mrs. Susan 
Pompeo--thank you for coming--the best ambassador I ever worked 
for, Ambassador Louis Susman; and two dear mentors of mine, 
senior CIA officers and then later senior IC officials, Mary 
Margaret Graham and Charlie Allen.
    I am here because I have been nominated to lead the 
extraordinary men and women at the Central Intelligence Agency. 
Men and women who are our country's silent warriors. These 
dedicated professionals spend much of their careers in 
difficult far-flung outposts of the globe, striving to make our 
fellow Americans more secure at home. It has been the privilege 
of my professional life to be one of those CIA officers.
    Now, I have been asked by President Trump to lead this 
workforce and to continue the work that Mike Pompeo and I began 
a little more than a year ago, ensuring that CIA is postured to 
meet the complex challenges our Nation faces. Those challenges 
include: a changing, but still lethal, threat from terrorist 
groups; a nuclear threat against the continental United States 
from a rogue state; destabilizing Iranian adventurism; an 
aggressive and sometimes brutal Russia; and the long-term 
implications of China's ambitions on the global stage.
    While these challenges are daunting and offer few easy 
answers, I am confident the United States and the American 
people have the resolve to meet them head-on. If I am confirmed 
as Director, you have my solemn commitment that I will position 
this Agency to provide the intelligence support our country 
needs to meet the challenges of today and those of tomorrow.
    I welcome the opportunity to introduce myself to the 
American people for the first time. It is a new experience for 
me, as I spent over 30 years undercover and in the shadows. I 
don't have any social media accounts, but otherwise I think you 
will find me to be a typical middle class American, one with a 
strong sense of right and wrong and one who loves this country.
    I was born in Kentucky and, while my family has deep roots 
there, I was an Air Force brat, and we followed my father to 
postings all over the world. My childhood overseas instilled in 
me a deep love for foreign languages and cultures, but also a 
deep understanding of the vital role of American leadership in 
combating aggression abroad.
    I joined CIA in 1985 as a case officer in the Clandestine 
Service. From my first days in training, I had a knack for the 
nuts and bolts of my profession. I excelled in finding and 
acquiring secret information that I obtained in brush passes, 
dead drops, or in meetings in dusty alleys of third world 
capitals.
    I recall very well my first meeting with a foreign agent. 
It was on a dark, moonless night, with an agent I'd never met 
before. When I picked him up, he passed me the intelligence and 
I passed him an extra $500 for the men he led. It was the 
beginning of an adventure I had only dreamed of.
    The men who ran CIA in those days leaned forward in giving 
me the right opportunities to succeed or fail. When a very 
tough, old-school leader announced that I was his pick to be 
chief of station in a small but important frontier post, a few 
competitors complained to me directly: Why would they send you? 
I owe that leader much for believing in me at a time when few 
women were given these opportunities.
    While I could have done without some of the long nights 
sleeping on the floor of my station, I was proud of the work we 
did there, including the successful capture of two major 
terrorists in the wake of the Africa embassy bombings, a 
counter-proliferation operation that went our way, and the 
dismantlement of a local terrorist cell.
    Altogether, I have served seven tours in the field, four as 
chief of station, including hardship assignments in distant 
posts and more recently in the capital of a major U.S. ally. By 
any standard, my life at the Agency--and it has been my life--
has exceeded all of my expectations from that January day when 
I first took the oath to today.
    There were few senior women leading at CIA in those days, 
and we are stronger now as an organization because that picture 
is changing. I did my part, quietly and through hard work, to 
break down some of those barriers. And I was proud to be the 
first woman to serve as the number two in the Clandestine 
Service.
    It is not my way to trumpet the fact that I am a woman up 
for the top job at CIA, but I would be remiss in not remarking 
on it, not least because of the outpouring of support from 
young women at CIA and indeed across the IC, because they 
consider it a good sign for their own prospects.
    My experience and success as an operations officer led to 
three leadership positions in the Clandestine Service, and one 
year ago I was asked to serve as Deputy Director of CIA. The 
reaction of the workforce to a rare nomination of one of their 
own to be Director, someone who has been in the trenches with 
them, has been overwhelming. I am humbled by their confidence 
that I can successfully lead this Agency and inspired to work 
harder than ever to maintain that trust.
    They know that I don't need time to learn the business of 
how CIA works. I know CIA like the back of my hand. I know 
them, I know the threats we face, and I know what we need to be 
successful in our mission.
    I have played a leading role this past year in setting us 
on the right path, and I intend on continuing on that path if I 
am confirmed as Director. Our strategy starts with 
strengthening our core business, collecting intelligence that 
helps policymakers protect our country, and advance American 
interests across the globe. It includes raising our investment 
against the most difficult intelligence gaps, putting more 
officers in the foreign field where our adversaries are, and 
emphasizing foreign language excellence. Finally, it involves 
investing in our partnerships, both within the U.S. Government 
and around the globe.
    We must do everything we can to follow through on these 
investments and to make CIA as effective as it can possibly be, 
because the American people deserve no less than CIA's best 
effort. This is especially true when it comes to confronting 
threats from North Korea, Iran, Russia and China. Today CIA 
officers are deployed across the globe, sometimes at 
significant personal risk, collecting critical human and 
technical intelligence. I have spent my entire career driving 
operations and if confirmed, I will be able to leverage that 
experience beginning on day one.
    I knew that accepting the President's nomination would 
raise questions about CIA classified activities and my career 
at the Agency. I also understand that it is important for the 
American people to get to know me so they are able to judge my 
fitness for this position. So over the last few weeks we have 
leaned forward to make more information about my record public. 
We have also shared details on every aspect of my career 
through classified channels with this committee, as well as 
with the rest of the Senate.
    I think it is important to recall the context of those 
challenging times immediately following 9/11. For me, I had 
just returned to Washington from an overseas posting and I 
reported for duty on the morning of 9/11. I knew in my gut when 
I saw the video of the first plane hitting the tower in 
Manhattan that it was bin Laden.
    I got up and I walked over to the Counterterrorism Center 
as the CIA compound was evacuated and I volunteered to help. I 
didn't leave for three years. We worked seven days a week and I 
even had friends who postponed weddings and having babies. The 
men and women of CIA were driven and charged with preventing 
another attack.
    The first boots on the ground in Afghanistan were my 
colleagues'. The first casualty in Afghanistan was a CIA 
officer and colleague. And it was CIA who identified and 
captured the mastermind of 9/11 in a brilliant operation. I am 
proud of our work during that time. The hard lessons we learned 
from that experience inform my leadership of CIA today.
    In light of my counterterrorism experience, I understand 
that what many people want to know about are my views on CIA's 
former detention and interrogation program. I have views on 
this issue and I want to be clear. Having served in that 
tumultuous time, I can offer you my personal commitment clearly 
and without reservation, that under my leadership, on my watch, 
CIA will not restart a detention and interrogation program.
    CIA has learned some tough lessons from that experience. We 
were asked to tackle a mission that fell outside our expertise. 
For me, there is no better example of implementing lessons 
learned than what the Agency took away from that program. In 
retrospect, it is clear, as the SSCI Majority report concluded, 
that CIA was not prepared to conduct a detention and 
interrogation program.
    Today, the U.S. government has a clear legal and policy 
framework that governs detentions and interrogations. 
Specifically, the law provides that no individual in U.S. 
custody may be subjected to any interrogation technique or 
approach that is not authorized by and listed in the Army Field 
Manual. I fully support the detainee treatment required by law 
and, just as importantly, I will keep CIA focused on our 
collection and analysis missions that can best leverage the 
expertise we have at the Agency. Like I said, we learned 
important lessons following 9/11.
    As both a career intelligence officer and as an American 
citizen, I am a strong believer in the importance of oversight. 
Simply put, experience has taught us that CIA cannot be 
effective without the people's trust, and we cannot hope to 
earn that trust without the accountability that comes with 
Congressional oversight.
    If we cannot share aspects of our secret work with the 
public, we should do so with their elected representatives. For 
CIA oversight is a vital link to the open society we defend. 
It's a defining feature of the U.S. intelligence community and 
one of the many things that distinguishes us from the hostile 
services we face in the field.
    If confirmed as Director, I will uphold the Agency's 
obligations to Congress and ensure that oversight works on 
behalf of the American people. Mr. Chairman, I want to thank 
you and the committee for the hard work that is put into the 
oversight process and for the vital support that this committee 
provides the officers at CIA.
    CIA has given me a lot over the past three decades: a 
calling and service to my country; some real-life adventures; 
and the profound satisfaction of serving with some of the most 
talented and honorable men and women in our government. If 
confirmed, I hope to repay the debt I owe to this remarkable 
Agency by drawing on my experience. I know what my fellow 
officers need from me and I know what our Nation needs from 
CIA, and that is truth, integrity, and courage.
    Again thank you for allowing me the opportunity to appear 
before you today and I look forward to your questions.
    [The prepared statement of Ms. Haspel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Ms. Haspel, thank you for that testimony.
    Let me inform members that we will have a five-minute round 
of questions. We will recognize members based upon seniority. I 
would ask all members to adhere to the five-minute timeframe 
and I would remind members that we are in an open session; 
therefore, classified questions and/or answers would not be 
appropriate for this period. When we have completed the open 
session, we will immediately move to a closed session where 
every question will be answered, I am certain.
    The Chair recognizes himself for up to five minutes.
    Ms. Haspel, let's just dig right into it. There's been much 
debate and much news coverage about Jose Rodriguez, the former 
Director of the National Clandestine Service, and his decision 
to direct the destruction of the detainee interrogation 
videotapes. Can you describe for members your role in those 
events?
    Ms. Haspel. Senator, yes I can. In 2005--I believe it was 
fall of 2005--I was chief of staff to the Deputy Director for 
Operations, that is head of the Clandestine Service. The tape 
issue had lingered at CIA for a period of about three years. I 
believe the tapes were made in 2002, and over time, there was a 
great deal of concern about the security risks posed to CIA 
officers who were depicted on the tapes.
    Those security issues centered on the threat from Al-Qaeda 
should those tapes be irresponsibly leaked. Mr. Rodriguez, who 
was the DDO at the time, the Deputy Director for Operations, 
has been very up-front and has made it clear on a number of 
occasions publicly that he and he alone made the decision to 
destroy the tapes.
    I would also make it clear that I did not appear on the 
tapes, as has been mischaracterized in the press. However, as 
chief of staff, and I believe like everyone at the Agency at 
that time, we were extremely concerned about the security risk 
that was posed to our officers. We were aiming to do two 
things: to adhere to U.S. law, but at the same time reach a 
resolution that would protect our officers.
    There were numerous legal consultations over a period of 
years at the Agency. Our lawyers were very consistent in saying 
to us that there was no legal requirement to retain the tapes, 
no legal impediment to disposing of the tapes. I'm not a 
lawyer, but I believe the basis for that judgment was the fact 
that there was a complete and written detailed record of the 
interrogations; and at CIA, the official record is the cable 
record. We use that for all of our operations.
    There were two reviews done of the tapes to compare them to 
the written record. One of those was undertaken by the Office 
of General Counsel. The second was undertaken by the Office of 
the Inspector General. In both cases, they found that the 
written record was detailed, accurate and complete. So the 
consistent legal advice--it never changed--was that there was 
no legal requirement to retain the tapes.
    But, there were some policy objections to disposing of the 
tapes. So, our job in the Office of the Deputy Director for 
Operations was to arrange consultations with senior leaders at 
the Agency.
    At the time the tapes were destroyed, Mr. Rodriguez asked 
me to prepare a cable because he was going to have another 
conversation with then Director of the Agency to talk about 
this issue again. I did so.
    A couple of days later, he released the order, he believed 
on his own authority. He took the decision himself and he said 
it was based on his own authority. I asked him if he had had 
the consultation with the Director at the time as planned and 
he said he decided to take the decision on his own authority.
    There were three investigations, three looks at the tapes, 
inquiries, that I know about. One was undertaken by HPSCI, the 
House Oversight Committee. I never saw a report on that, but 
the chairman at the time said that he found no fault with my 
actions. There was a Department of Justice investigation that 
was closed without charges after, I think, more than two years.
    And then, there was an internal investigation of the issue 
conducted by one of my predecessors, Mr. Morell, who found no 
fault with my actions and that my decisions were consistent 
with my obligations as an Agency officer.
    Chairman Burr. Thank you for that answer.
    Recognizing my five minutes is now up, I recognize the Vice 
Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    I want to follow-up on the question around the tapes, Ms. 
Haspel. November 4 of 2005, then Senator Levin introduced 
legislation to create a commission modeled on the 9/11 
Commission, to look into the Agency's treatment of detainees. 
Three days later, you drafted the cable. Four days later, the 
tapes were destroyed. Were you aware of Senator Levin's 
actions? The timing seems very close to acting on behalf of 
potential Congressional action.
    And in Mr. Morell's statements, there were comments that 
your superior, Mr. Rodriguez, was aware that two White House 
counsels, the counsel to the Vice President, the DNI and the 
DCIA and the HPSCI ranking member had all expressed opposition 
or reservations about the destruction of the tapes.
    So were you aware of those facts that Mr. Rodriguez was at 
least aware of, and were you aware of the actions of Senator 
Levin when you drafted your memo and then had the tapes 
subsequently destroyed?
    Ms. Haspel. Senator Warner, what I recall were the security 
issues surrounding the tapes. I don't recall pending 
legislation. I just don't recall that.
    Vice Chairman Warner. What about the issue of all of the 
counsel, the counsel to the Vice President, DNI, HPSCI ranking 
member, the fact that there was----
    Ms. Haspel. Senator, I don't know if I was aware of all of 
those, but I knew there were--there was disagreement about the 
issue of the tapes outside the Agency, and that is why we were 
working toward a meeting with the then Director, to talk about 
those issues and how we addressed those concerns of people 
outside the Agency. So I was working toward resolution within a 
process.
    Vice Chairman Warner. Well, with that overhang--and I know 
other members will raise this--the timing seems--I hope I can 
get some more clarity on the timing. I want to make sure I take 
my time, though.
    I heard your statement about the fact that if you're 
confirmed there will never be an interrogation program under 
your leadership. And you addressed the issue of the fact that 
it is against the law. The question I have: With the benefit of 
hindsight, do you believe the program in terms the 
interrogation program was consistent with American values?
    Ms. Haspel. Senator, as we sit here today and with some 
distance between us and the events of 9/11, the Congress, and 
indeed our Nation, have had an opportunity to have a debate 
about the interrogation standards we want to use as the United 
States of America. We had decided to hold ourselves to a 
stricter moral standard. For DOD, that is defined in the Army 
Field Manual. I support the United States holding itself to 
that stricter moral standard and I support the Army Field 
Manual.
    Vice Chairman Warner. But, Ms. Haspel, that is answering on 
a legalistic--we're asking you to take on a position. I 
understand with RDI you were downstream, not part of the 
policymaking. But if you're entrusted with this responsibility, 
we need, I need, to at least get a sense of what your moral 
code says about those kind of actions. Because there is the 
potential that this President could ask you to do something--he 
obviously believes in these procedures--but even if he asked 
you to do something that is not directly related to detention 
interrogation. But if he asked you to do something that you 
believe is morally questionable, even if there is an OLC 
opinion that in effect gives you a ``Get Out of Jail Free'' 
card, what will you do in that action when you are the Director 
of the CIA?
    Ms. Haspel. Senator, my father is watching today. He served 
33 years in the Air Force. My parents gave me a very strong 
moral compass. I support the higher moral standard that this 
country has decided to hold itself to. I would never ever take 
CIA back to an interrogation program.
    First of all, CIA follows the law. We followed the law 
then. We follow the law today. I support the law. I wouldn't 
support a change in the law. But I'll tell you this: I would 
not put CIA officers at risk by asking them to undertake risky, 
controversial activity again.
    Vice Chairman Warner. Ms. Haspel, my question is this: On a 
going-forward basis, if this President asked you to do 
something that you find morally objectionable, even if there is 
an OLC opinion, what will you do? Will you carry that out, that 
order, or not? I mean, we're entrusting you in a very different 
position if you're confirmed. I just need to know what your 
response to that would be.
    Ms. Haspel. Senator, my moral compass is strong. I would 
not allow CIA to undertake activity that I felt was immoral 
even if it was technically legal. I would absolutely not permit 
it.
    Vice Chairman Warner. So you would not follow the order if 
you felt it was----
    Ms. Haspel. No. I believe that CIA must undertake 
activities that are consistent with American values. America is 
looked at all over the world as an example to everyone else in 
the world and we have to uphold that, and CIA is included in 
that.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    Chairman Burr. Senator Risch.
    Senator Risch. Thank you very much, Mr. Chairman.
    Ms. Haspel, thank you for undertaking this and thank you 
for your many years of service with the CIA.
    For my colleagues, I'm going to tell you right at the 
outset: I'm going to support this nomination. I don't take that 
lightly. I've had the opportunity to review all the materials 
that have been provided. But more importantly than that, I've 
known Ms. Haspel for the ten years I've been on this committee 
and had the opportunity to work with her over those years and 
even visit you out in the field when you were at the garden 
spots that----
    Ms. Haspel. I remember.
    Senator Risch. Right.
    In any event, for my colleagues, I can report to you that 
during this time I have always found Ms. Haspel to be open, to 
be forthcoming, and to be truthful. And that is incredibly 
important as we exercise the things that we have to do as far 
as authorizing, as far as financing, and as far as oversight of 
what this really, really important work is that the CIA does.
    So for that, Ms. Haspel, you will be rewarded with my vote, 
and I feel very comfortable about that, and I sincerely 
appreciate your openness as we've met over the years and I've 
had the opportunity to ask you about the things that I needed 
to know as I discharge my obligations.
    I'm also persuaded greatly by the former directors, both 
Republicans and Democrats, who are enthusiastically supporting 
your appointment to this. I think that is very important.
    I'm also persuaded by something that I think other members 
of this committee have probably run across, and that is we all 
from this committee deal regularly with our partners in intel 
from foreign countries. As you know, that's critically 
important to the job of the CIA and the other 16 intelligence 
agencies. Those relationships, those contacts, those dealings 
we have with those foreign agencies, are very important.
    And I have to tell you that uniformly people who I have 
discussed your taking on this job have been very enthusiastic 
about it. They know you. They trust you. The trust of this 
Agency is so important when we deal with the Five Eyes or 
amongst the Five Eyes or with other intelligence partners. So 
thank you for that.
    Also, I deal with a lot of the employees at the CIA. They 
are incredibly enthusiastic about your appointment to this, so 
thank you for that.
    For the American people who are watching this, I can tell 
you that everybody sitting on this side of the table regularly 
hears things that cause us to not sleep very well at night. As 
the head of this Agency, I can tell you I will sleep better at 
night knowing you're directing these efforts, so thank you for 
that.
    Thank you for undertaking what you are undertaking. I know 
that you have thought about this carefully. If the press 
reports are right, you've been up and down a little bit on 
this. But the American people will be very grateful for your 
service.
    Let me ask a question as we close here. You know, over the 
ten years--I came here just as the investigation on the 
interrogation thing was starting, and I participated, other 
members of the committee here participated, in that. And there 
was a real tension between not just the CIA, but the other 
intelligence agencies, because of the way the oversight was 
being done by this committee.
    My impression is, and it's a clear impression, that the 
relationship between the Agency, CIA, and the other 
intelligence agencies, has evolved to a very different place 
than where it was when I first got here. Could you talk about 
that a little bit, please?
    Ms. Haspel. Thank you for that question, Senator. I think 
it's a very important question. When Mike Pompeo and I took the 
reins at Langley about 15 months ago, we decided to concentrate 
on four initiatives. And one of those is partnerships, and it 
involves two areas: first, our partnerships with our other IC 
partners in the U.S. Government, but even more broadly than 
that.
    There are many important partnerships for CIA and, as you 
say, those partnerships are critical because it's a complex 
world.
    There is no more important partnership than the one between 
CIA and DOD. I have had the absolute honor and privilege to sit 
at the table with Secretary Mattis and General Dunford these 
last 15 months, to work with the JSOC commander and the other 
combatant commanders. I don't think that very important 
relationship has ever been in a better place. Likewise, NSA is 
our sister agency. We're very close. And of course, our 
relationship with the Federal Bureau of Investigation is 
critical to the national security of this country.
    But you mentioned something else that's important and it's 
a bit of an unheralded story. But the intelligence services of 
our closest allies do amazing things for the national security 
of this country each and every day. And I can't talk very much 
about it in this open session, but they do incredible things 
that advance our national security on the terrorism and 
proliferation fronts in particular, and we owe a great deal of 
gratitude to those allies.
    Senator Risch. Thank you for that.
    Chairman Burr. The gentleman's time has expired.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Good morning, Ms. Haspel.
    Ms. Haspel. Good morning, Senator Feinstein.
    Senator Feinstein. While many nominees have classified 
backgrounds, you are very unique. You have 30 years of 
undercover experience. Accordingly, we asked the Agency that 
your records be declassified--I think I signed three letters in 
that regard--to make an informed decision and because the 
public should be aware of the background of its leaders.
    Instead, the CIA selectively declassified only small pieces 
of information to bolster your nomination, while keeping 
damaging information under wraps. Given the CIA's refusal to 
make your record public, I'm very limited in what I can say. I 
think as you know, I like you personally very much. This is 
probably the most difficult hearing in my more than two decades 
I have ever sat in, but let me begin.
    In his memoir, Former CIA Counsel General John Rizzo 
described how in 2005 Jose Rodriguez was promoted to be Deputy 
CIA Director for Operations and installed as his chief of staff 
an officer from the Counterterrorism Center who had previously 
run the interrogation program. Is that you?
    Ms. Haspel. Senator, I'm so pleased you asked me that 
question.
    Senator Feinstein. Yes or no will do.
    Ms. Haspel. No. And for the record, if you have your staff 
check, Mr. Rizzo has issued a correction.
    It is true that it is hard in a secret----
    Senator Feinstein. Excuse me. My understanding is that he--
--
    Ms. Haspel. That is not accurate.
    Senator Feinstein [continuing]. Has recently confirmed that 
it was you.
    Ms. Haspel. No. He issued a correction.
    When people write books--I didn't read Mr. Rizzo's book, so 
I didn't even know that was out there. Mr. Rizzo--and actually 
I read about it in the ``Washington Post'' last night. Erik 
Wemple I believe wrote a story talking about the failure of 
certain organizations to correct their facts, and that was one 
of them; and he noted that Mr. Rizzo, about ten days ago--he 
was wrong. He didn't fact-check. And that has been corrected.
    I never even served in that department, nor was I the head 
of it.
    Senator Feinstein. Let me read directly his quote from the 
book: ``Several weeks later, Porter promoted Jose Rodriguez to 
the position of Deputy Director for Operations, Jim Pavitt's 
former job. Once more, Jose installed as his chief of staff an 
officer from the Counterterrorism Center who had previously run 
the interrogation program. Between them, they were the 
staunchest advocates inside the building for destroying the 
tapes.''
    Ms. Haspel. Senator, I did not run the interrogation 
department. In fact, I was not even read into the interrogation 
program until it had been up and running for a year. I never 
served----
    Senator Feinstein. Were you an advocate for destroying the 
tapes?
    Ms. Haspel. Senator, I absolutely was an advocate if we 
could within and conforming to U.S. law and if we could get 
policy concurrence to eliminate the security risk posed to our 
officers by those tapes and the consistent legal----
    Senator Feinstein. Were you aware of what those tapes 
contained?
    Ms. Haspel. No, I never watched the tapes. But I understood 
that our officers' faces were on them and that that was very 
dangerous at a time when there were unauthorized disclosures 
that were exposing the program.
    Senator Feinstein. But it also exposed how the program was 
conducted, because they were tapes of the actual interrogation 
of certain--of 92 detainees, as I understand it.
    Ms. Haspel. No, the tapes were recordings of only one 
detainee. It was 92 tapes of one detainee.
    Senator Feinstein. All right. Well, thank you for that.
    Let me--in November and December of 2002, did you oversee 
the enhanced interrogation of al-Nashiri, which included the 
use of the waterboard as publicly reported? Yes or no?
    Ms. Haspel. Senator, anything about my classified 
assignment history throughout my 33 years we can talk about in 
this afternoon's classified session. There are guidelines on, 
as you know, existing classification guidelines.
    And I should go back to your first point, which is very, 
very important, about why we haven't declassified more about my 
history. There are existing classification guidelines that 
apply to operational activity of any officer. It has been 
suggested to me by my team that if we tried to declassify some 
of my operational history, it would help my nomination. I said 
that we could not do that. It is very important that the 
Director of the Central Intelligence Agency adhere to the same 
classification guidelines that all employees must adhere to, 
because there are very good reasons for those classification 
guidelines. Exposing operational information can be damaging to 
sources and methods, as you know, but there is also a physical 
risk to officers who go out to the far ends of the globe and 
conduct dangerous missions and they believe that their 
participation in those dangerous missions will be protected. It 
would be a security risk if we started declassifying 
associations between CIA officers and particular terrorist or 
terrorist operations.
    So I am adhering to the existing guidelines and I believe 
that it is important and that I could not stand before the CIA 
if I sought for short-term gain to declassify my operational 
history.
    Senator Feinstein. Thank you, Mr. Chairman.
    Chairman Burr. The Senator's time has expired.
    Senator Rubio.
    Senator Rubio. Thank you.
    Ms. Haspel, when I joined this committee seven years ago I 
knew as much about the CIA as the average American. Obviously, 
I know a lot more these days. Much of it can't be shared, but 
there's two things that I can. The first is that it's very easy 
to sit back and criticize the work of the Agency with the 
benefit of hindsight.
    And the second, is that the Agency is made up of some of 
the smartest, most talented professionals that I've ever 
encountered in any field in my time in public service or 
beyond. These are men and women that could be making a lot of 
money in the private sector, but instead they've chosen to 
serve our country, many in the shadows, many at the risk of 
their own lives, all to keep us safe. By the way, they 
sacrifice this money, this time with their family, this normal 
life in many cases, in defense of the freedoms, including the 
freedoms of the protesters who often smear them and the 
activists who often slander them.
    Ms. Haspel, you embody everything that I respect and admire 
about the men and women of the Central Intelligence Agency and 
I support you, not just because of your qualifications, but 
because I want a young CIA trainee or case officer, I want 
today's operational officers, I want today's station chiefs, I 
want today's--all of these professionals, to know that they too 
can one day be sitting where you are sitting today and have the 
opportunity to lead this Agency.
    And I would ask, if someone like you, with your history, 
with your record of service and sacrifice and excellence, if 
someone like you cannot be confirmed to head this Agency, than 
who can? And if someone like you is smeared in this process, 
what message are we sending to the young men and women who 
today are serving our country in the same roles in which you 
have served our country over the last 30 years.
    And I thought it was important for that to be part of the 
record today because as much as anything else, this hearing is 
not just about your nomination. For me, it is also about the 
men and women who serve us, of which I said at the outset, you 
embody the best of the men and women of the Central 
Intelligence Agency.
    On a policy front, I want to ask you about U.S.-China 
relations. For decades, American foreign policy towards China 
has been rooted in the belief that as they prospered 
economically they would embrace democracy, they would embrace 
the global rule of law. That consensus I think by all accounts 
has been catastrophically wrong. Today China is undertaking a 
comprehensive effort to supplant the United States and to 
undermine us. And they've benefited from the greatest transfer 
of wealth in history, through the theft and the forced transfer 
of intellectual property. They use unfair trade and other 
practices to undermine our industrial and technical base. They 
gather and exploit data at an unrivaled scale. They're building 
the most capable and well-funded military in the world second 
to ours.
    So my question, first and foremost: Is the Agency, as it 
stands today, equipped and structured to meet this multifaceted 
challenge?
    Ms. Haspel. Senator, thank you for that question. One of 
the first things Mike Pompeo and I looked at when I returned to 
the Agency from overseas in early 2017 is how we're doing on 
the hard targets--that's what you're talking about--China, 
Iran, Russia and North Korea.
    Of course, our investment in counterterrorism has to be 
very significant. We have to be vigilant and we can't take our 
eyes off that ball. But there are more strategic threats and 
you talked about one them, China, China's rise as a global 
power. CIA has a very important role in monitoring China's rise 
as a global power. China's efforts to diminish U.S. influence, 
not only in the Pacific, but all around the world; China's 
unfair trade practices, and China's overt and illicit efforts 
to steal U.S. technology and know how and intellectual 
property.
    We, with the support of this committee, are raising our 
investment on each of these hard targets. We have incredible 
expertise on China at the Agency. It is a very strong team. I'm 
very proud of our analysts. It is a subject that a week doesn't 
go by that either the President asks for an expert briefing or 
Secretary Mattis asks for someone to come over and brief him on 
China issues. We have a good program, but your more general 
point is that we have to do more and we have to invest more on 
each of these hard targets.
    Senator Rubio. Well, I recently introduced legislation with 
Senator Cotton that would block the U.S. government from buying 
or leasing telecommunication equipment from Huawei or ZTE 
Corporation. Beyond government purchase, I would ask you, just 
for the citizens that are watching; if you were just an 
everyday American or even someone involved in any sort of 
sensitive work, would you purchase a Huawei phone or connect 
your phone or computer to a Huawei or ZTE network?
    Ms. Haspel. Well, Senator, as I mentioned, I don't even 
have a social media account, but I wouldn't use Huawei 
products.
    Chairman Burr. The Senator's time has expired.
    Senator Rubio. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Haspel, thank you very much for your courtesy in 
meeting with me yesterday. However, I regret to have to say 
there is no greater indictment of this nomination process than 
the fact that you are deciding what the country gets to know 
about you and what it doesn't. And so far, the American people 
have only been given information that is designed to help you 
get confirmed. Everything else has been classified. So I've got 
some questions. I think they're fairly short and some I hope we 
can do yes or no.
    Now, you publicly released the Morell report, which some 
have cited as reflecting favorably about your involvement in 
the destruction of interrogation tapes. Do you have any 
objection this morning to the public release of the Durham 
investigation, which would give the American people more 
information on the same topic, in which, does not come from the 
CIA?
    Ms. Haspel. Senator, just to be clear, the request for the 
declassification of the Morell memo was in response to a member 
on this committee. I have not read the Durham report and I 
don't know the classification. So let me take that for the 
record if I may?
    Senator Wyden. But do you have any objection?
    Ms. Haspel. Well, I haven't seen it, so I haven't read it. 
So I don't know.
    Senator Wyden. Well, I'm going to ask you about this in the 
classified session. But I think in the name of fairness with 
respect to your role on these issues, this ought to be made 
public just the way the Morell report was.
    Now, on Sunday the ``Washington Post'' reported that 
unnamed officials were pushing back against accusations that 
you supported torture, in one of our biggest papers in the 
country. Between 2005 and 2007 the program was winding down. 
The CIA was capturing fewer detainees and waterboarding was no 
longer approved. During that time, did you ever call for the 
program to be continued or expanded?
    Ms. Haspel. Senator, I think, like all of us who were in 
the Counterterrorism Center and working at CIA in those years 
after 9/11, we all believed in our work. We were committed. We 
had been charged with making sure the country wasn't attacked 
again. And we had been informed that the techniques in CIA's 
program were legal and authorized by the highest legal 
authority in our country and also the President. So I believe I 
and my colleagues in the Counterterrorism Center were working 
as hard as we could, with the tools that we were given----
    Senator Wyden. Ma'am----
    Ms. Haspel [continuing]. To make sure that we were 
successful in our mission.
    Senator Wyden. My time is short and that, respectfully, is 
not responsive to the question. That was a period where the 
Agency was capturing fewer detainees, waterboarding was no 
longer approved and especially in light of that ``Washington 
Post'' story, I would really like to have on the record whether 
you ever called for the program to be continued, which it sure 
sounds to me like your answer suggested. You said: Well, we 
were doing our job; it ought to be continued. That troubles me 
very much, because you were the chief of staff to the Deputy 
Director for Operations. It's a senior position. So I'm quite 
troubled by that response.
    Ms. Haspel. Senator, may I just say that----
    Senator Wyden. Of course.
    Ms. Haspel [continuing]. I don't know which ``Washington 
Post'' story you're referring to, but let me say this about 
myself. After 9/11, I didn't look to go sit on the Swiss desk. 
I stepped up. I was not on the sidelines. I was on the 
frontlines in the Cold War and I was on the frontlines in the 
fight against Al-Qaeda.
    Senator Wyden. I respect that.
    Ms. Haspel. I'm very proud of the fact that we captured the 
perpetrator of 9/11, Khalid Sheikh Mohammed. I think we did 
extraordinary work. To me, the tragedy is that the controversy 
surrounding the interrogation program, which as I've already 
indicated to Senator Warner I fully understand that, but it has 
cast a shadow over what has been a major contribution to 
protecting this country.
    Senator Wyden. I respect a number of those points. I just 
am trying to get some answers here to questions that I think 
are particularly relevant.
    According to a press story today about the destruction of 
the interrogation videotapes, Jose Rodriguez told you in 
advance that he was going to take matters into his own hands. 
Did that conversation happen?
    Ms. Haspel. Senator, no, it did not. Mr. Rodriguez 
indicated to me that he planned to discuss it with the then 
Director Goss.
    Senator Wyden. Let me see if I can get one last question in 
on it. When did you become aware that the cable authorizing the 
destruction of the interrogation videotapes had been sent?
    Ms. Haspel. Senator, as chief of staff, it's a desk-bound 
job, so I was at my desk at least 12 hours every day, and I 
could see my computer screen. So it was shortly after Mr. 
Rodriguez, who sat right across the hall from me, had released 
the cable.
    Senator Wyden. I'm over my time. I'll ask some more about 
this in the classified session.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Jack Reed and I co-sponsored the McCain-Feinstein 
bill that banned waterboarding and other enhanced interrogation 
techniques because we viewed them as contrary to American 
values and tantamount to torture. So let me ask you a series of 
questions. First, were you involved in any way in the creation 
of the enhanced interrogation program?
    Ms. Haspel. Senator, I was not, and I was not read into the 
program until about a year into its existence.
    Senator Collins. Were you a senior manager at the CIA at 
the time that the program was created?
    Ms. Haspel. No. I had just returned from an overseas 
posting. I was a GS-15. I was not yet a member of the Senior 
Executive Service. I was assigned as a deputy group chief--
that's pretty far down the totem pole--in a program that had 
nothing to do with the detention and interrogation program.
    Senator Collins. You said that the program had already been 
in effect for some time before you were read into it. What was 
your reaction when you learned of the program?
    Ms. Haspel. Senator, it was a new subject for me. As I 
said, we lacked interrogation expertise at the Agency. We 
didn't have interrogators. I was told that interrogation 
experts had designed the program, that the highest legal 
authority in the United States had approved it, and that the 
President of the United States had approved it, as well as a 
trusted leadership at the Central Intelligence Agency.
    Senator Collins. Have your views of the program evolved in 
the years following the attacks on our country on 9/11?
    Ms. Haspel. Senator, they have. I think it's very 
important. I think for any leader as you go through a career, 
you have to learn the leadership lessons. I'm not going to sit 
here with the benefit of hindsight and judge the very good 
people who made hard decisions who were running the Agency in 
very extraordinary circumstances at the time. But, as I 
mentioned to Senator Warner, this country has had the 
opportunity to reflect because we have some space. We're not 
fearing another attack, and we have deliberated about the 
standard we want to use in interrogations, and that is the Army 
Field Manual.
    The very important thing to know about CIA is we follow the 
law. We followed the law then and we follow the law now. But I 
would never permit CIA to resume an interrogation program.
    Senator Collins. So that's a very good segue into a very 
important question. As a candidate, President Trump repeatedly 
expressed his support for waterboarding. In fact, he said we 
should go beyond waterboarding. So if the CIA has a high-value 
terrorism suspect in its custody and the President gave you a 
direct order to waterboard that suspect, what would you do?
    Ms. Haspel. Senator, I would advise, I do not believe the 
President would ask me to do that. But we have today in the 
U.S. government other U.S. government entities that conduct 
interrogations. DOD uses the Army Field Manual and they conduct 
battlefield interrogations, and CIA has incredible expertise it 
can bring to the table in support of those interrogations.
    The FBI has its authorities to conduct interrogations. And, 
as you know, we have the High-value Interrogation Group. So I 
would advise anyone who asks me about it that CIA is not the 
right place to conduct interrogations. We don't have 
interrogators and we don't have interrogation expertise.
    So I believe that that would be my--the reason I have been 
nominated is that people have some respect for my views on 
these issues. My experiences during those days after 9/11 
inform my views. I'm extremely knowledgeable and I'm also 
extremely knowledgeable about the price CIA working level men 
and women out in the trenches paid for decisions made after 9/
11.
    Senator Collins. So debriefing a source is very different 
from interrogating a detainee. Should the CIA even be in the 
business of interrogating detainees?
    Ms. Haspel. We don't--we're not in the business of 
interrogating----
    Senator Collins. That's for the HIG, is what you're saying?
    Ms. Haspel. Well, we're not in the business of 
interrogating detainees. As you said, there's a big difference 
between interrogation and simple question and answer. Having 
access, direct access to a terrorist, is extremely valuable for 
intelligence collection and we do that. But CIA does not today 
conduct interrogations. We never did historically and we're not 
getting back in that business.
    Senator Collins. Thank you.
    Chairman Burr. The Senator's time has expired.
    Senator Heinrich.
    Senator Heinrich. Ms. Haspel, you didn't actually answer 
the question. What would you do if the President ordered you to 
get back in that business?
    Ms. Haspel. Senator, the President has selected me to give 
him----
    Senator Heinrich. That's a yes----
    Ms. Haspel [continuing]. Advice. I would not restart under 
any circumstances an interrogation program at CIA, under any 
circumstances.
    Senator Heinrich. Thank you.
    You have repeatedly said that at the time the CIA's use of 
interrogation techniques like waterboarding were determined to 
be legal. Now, there was an opinion written by the Office of 
Legal Counsel. I don't believe those actions were ever legal. 
They certainly didn't meet the bar set by either the Geneva 
Conventions or our own Army Field Manual, and I'm not aware of 
a single court ruling that affirmed that opinion.
    Today I'm not really interested in whether you believe 
those techniques were legal, but I am interested in the 
question that Senator Warner asked you. We got a very 
legalistic answer to that question. Let me ask you again: Were 
these the right thing to do? Are they consistent with American 
values fundamentally? What do you believe?
    Ms. Haspel. Senator, I believe very strongly in American 
values and America being an example to the rest of the world. 
That is why I support the fact that we have chosen to hold 
ourselves to a stricter moral standard.
    Senator Heinrich. But that's about Congress and all of us. 
I want to know what you think.
    Ms. Haspel. I think that we should hold ourselves to a 
stricter moral standard and I would never allow CIA to be 
involved in coercive interrogations.
    Senator Heinrich. Where was that moral compass at the time?
    Ms. Haspel. Senator, that was 17 years ago. You know, CIA, 
like the U.S. Army and the U.S. Marine Corps, is an 
organization, it's a large bureaucracy. And when you're out in 
the trenches at far-flung outposts in the globe and Washington 
says, here's what we need you to do, this is legal, the 
Attorney General has deemed it so, the President of the United 
States is counting on you----
    Senator Heinrich. No, I know you believed it was legal.
    Ms. Haspel [continuing]. To prevent another attack--I'm 
sorry?
    Senator Heinrich. I know you believed it was legal.
    I want to see, I want to feel, I want to trust that you 
have the moral compass that you said you have. You're giving 
very legalistic answers to very fundamentally moral questions.
    Ms. Haspel. Senator, you know, we've provided the committee 
every evaluation since my training report when I first joined 
in 1985. In all of my assignments, I have conducted myself 
honorably and in accordance with U.S. law. My parents raised me 
right. I know the difference between right and wrong.
    Senator Heinrich. Let's move on to the videotapes. You told 
me earlier this week that you supported the decision of the 
CIA's Deputy Director of Operations to order the destruction of 
those videotapes depicting the use of EIT's. Would you still 
support that order today?
    Ms. Haspel. Senator, I would not. I think it's--as I said, 
it's very important that people learn. Experience is a good 
teacher and the piece that was missing from the tapes was 
making sure that we had all the stakeholders' concurrence.
    There's also another very important leadership lesson; and 
as Director of CIA, when your officers are concerned about 
their physical security, you can't let it languish in your 
inbox----
    Senator Heinrich. Absolutely, I agree.
    Ms. Haspel [continuing]. For three years with no action.
    Senator Heinrich. We should support that security.
    Why couldn't the Agency have simply digitized that video 
and then blacked out the faces of any agents in those videos? 
Why actually destroy the videotapes? Doesn't that feel like a 
cover up, even if it isn't?
    Ms. Haspel. Senator, I don't think we were worried about 
official release. This was at a time when the entire program 
was the subject of unauthorized leaks and someone was found 
guilty of those unauthorized leaks. So the concern was an 
irresponsible leak of our officers' faces to the world, not an 
official release.
    Senator Heinrich. No, I understand that. But if you would 
blacked out the agents' faces, destroyed the videotapes, and 
then kept a digital record, that would've addressed those 
security concerns.
    Ms. Haspel. Senator, I'm just not a technical person, so I 
don't----
    Senator Heinrich. It's not that complicated.
    Ms. Haspel. Well, Senator, I don't know if that was 
considered or not.
    Senator Heinrich. Do you think that a transcript that says 
``the detainee continued to scream'' or ``the detainee appeared 
to be drowning'' has the same gravity, the same reality, as an 
actual video?
    Ms. Haspel. Senator, I never saw the videos. I do know that 
we keep very complete and almost verbatim records in our cable 
traffic. But I think that the issue was the security risk posed 
our officers.
    Senator Heinrich. Thank you.
    Chairman Burr. The gentleman's time's expired.
    Senator Blunt.
    Senator Blunt. Thank you. Thank you, Chairman.
    Ms. Haspel, you know, we haven't really mentioned the broad 
support that you have had publicly from Democrats, Republicans, 
people who've run this Agency in the past, people you have 
associated with. Frankly, people that this committee has, 
members on this committee have shown great respect and regard 
for, have shown that same respect and regard for you.
    I heard General Hayden, the former CIA Director, say the 
other day that he would be incredibly comfortable when the 
President was making decisions--he may have said maybe even 
more than comfortable. He said he would feel more secure, or 
something like that, if you were the person in the room.
    That's really what we're talking about right now. We're not 
talking about what happened 17 years ago. We should be talking 
about what might happen 17 days or 17 weeks from now. I thought 
General Hayden actually captured my exact feelings on this 
topic: the importance of you being in the room, your mastery of 
the facts, your broad understanding of what has happened during 
your career all over the world, the cause, the result, the 
relationships, all of those things.
    This is a term I think is often overused and I try not to 
use it very often, but it is ``truth to power.'' You're in the 
room; you understand the facts. Talk about your sense of 
obligation to present those facts and to speak truth to power 
at a moment when it matters.
    Ms. Haspel. Senator, thank you. Truth to power is one of 
CIA's most important missions. Like with any new 
administration, CIA has to demonstrate to the new team what we 
can bring to the table. I'm incredibly proud--even though I 
come from the operational side, I'm incredibly proud of the 
analysts at CIA. That's really our face with policymakers, 
including the Congress. They do an incredible job on the 
President's Daily Brief each day. They do an incredible job on 
the expert briefings they provide to inform the important 
decisions our policymakers must consider.
    As I mentioned, there isn't a week that doesn't go by that 
I am not the subject of a request to have an analyst by name 
come over and talk about some of the big issues. Our North 
Korea team has a superb reputation. Our China team is running 
all over this town, they're so busy providing briefings. We are 
all about bringing the most sophisticated, objective, all-
source analysis we can to make sure that the President and his 
team have the best intelligence that we can deliver. It's 
hugely important----
    [Interruption.]
    Chairman Burr. Capitol Police, please remove her.
    Senator Blunt. So let's go back. As a leader of the team, I 
appreciate that. I appreciate your respect for the team. Let's 
be sure we talk specifically about you. You're in the room. 
There is a fact that either hasn't appropriately been looked at 
or considered or appreciated in your view. What do you do at 
that moment?
    Ms. Haspel. Senator, thank you. I've already worked with 
this President and his team for 15 months. I think I have a 
great reputation with them. I'm at the table with Secretary 
Mattis and General Dunford and Secretary Mnuchin. I'm at many 
of the principals meetings. I back up the former Director in 
the Oval Office, where I'm part of Director Coats' team. 
Sometimes Sue Gordon is with me.
    I think we're bringing a very high-quality product. As a 
senior intelligence officer, someone who spent a lot of time 
overseas in some of these places, the President does turn to me 
for my view on certain countries and certain experiences. I 
give him my best advice. But I always separate my view, as 
someone who's been out in the field, from the view of our 
analysts, because we're really there to deliver the objective 
all-source analysis that they write to support the President.
    Senator Blunt. So you would see yourself as the master of 
the facts, to be sure the President knows all the facts the 
President needs to know?
    Ms. Haspel. I think that's incredibly important, Senator.
    Senator Blunt. Thank you.
    Thank you Chairman.
    Chairman Burr. Thank you Senator.
    Senator King.
    Senator King. Thank you Mr. Chairman.
    First, I've been to some of those garden spots with the 
committee and I have the greatest admiration and respect for 
what you and your colleagues have done over the years and do 
now. That's one of the great responses I have when I come back 
from one of those trips, that the stations are, the people in 
those places are brave and loyal and patriotic Americans.
    A quick yes or no question, not having to do with what 
we've been talking about. In January of 2017, the IC issued a 
joint report on the Russia involvement in the 2016 elections. 
Do you agree with the findings of that report?
    Ms. Haspel. Senator, I do.
    Senator King. Thank you.
    We've talked a bit about the statement in Mr. Rizzo's book 
that you had previously run the interrogation program. I 
understand he has changed his view on that. Your career 
timeline: 2001 to 2003, Deputy Group Chief, Counterterrorism 
Center; 2003 to 2004, Senior Level Supervisor, Counterterrorism 
Center; 2004 to 2005, Deputy Chief, National Resources 
Division. In any of those jobs, were you in a supervisory or 
management capacity in connection with the rendition and 
interrogation program?
    Ms. Haspel. Senator, we'll be able to go over--and I know 
you have some of this information. But we'll be able to go over 
any of my classified assignments in this afternoon session and 
I can talk about that.
    Just to be clear, Mr. Rizzo didn't change his view; he was 
wrong and he issued a correction.
    Senator King. Who's deciding what's classified and what 
isn't in terms of what's released to this committee?
    Ms. Haspel. Senator, we are following the existing 
guidelines. There are very----
    Senator King. Who's deciding?
    Ms. Haspel. We are following the existing guide----
    Senator King. Who's ``we''?
    Ms. Haspel. Well, I have chosen to follow the guidelines 
that exist for the RDI----
    Senator King. So you are making the classification 
decisions about what material should be released to this 
committee?
    Ms. Haspel. I am electing not to make an exception for 
myself, but I am adhering to existing RDI guidelines. If I may 
just----
    Senator King. That's fine. I just wanted to understand 
that. With regard to the cable, Mr. Rodriguez said that he 
asked you to ask two questions of the lawyers the day before 
the drafting of the cable. One was: Was it legal to destroy the 
tapes? Second, did he have the authority? Did you mention to 
those lawyers the intention to issue a cable that would destroy 
the tapes when you asked those two questions or were those the 
only questions you asked?
    Ms. Haspel. No, Senator, I explained that Mr. Rodriguez 
wanted to get resolution on this issue and that he was planning 
to have a conversation with the Director about it and he needed 
to have revalidation of those two points.
    Senator King. And you drafted the cable, is that correct?
    Ms. Haspel. Yes at his request.
    Senator King. Isn't it common practice in the CIA when a 
cable, particularly of this importance, is drafted that it be 
copied to various parts of the legal establishment within the 
CIA? And was that done in this case? Was that cable copied to 
Mr. Rizzo or other lawyers within the Agency?
    Ms. Haspel. Senator, there was--there was robust 
coordination with the lawyers at CIA on this issue----
    Senator King. Were they copied on the cable?
    Ms. Haspel. Mr. Rodriguez chose not to copy the lawyers on 
the cable because he took the decision on his own authority and 
he wanted to take responsibility for it. He's been very clear 
and up front about that.
    Senator King. And you were aware, because you drafted the 
cable, that the lawyers weren't copied on the cable?
    Ms. Haspel. But I knew that the lawyers had been consulted 
in a meeting and consulted over many times over three years.
    Senator King. In May 2005, Mr. Rizzo reports, ``I told Jose 
and his chief of staff.'' That was you, is that correct? ``I 
can't recall if I talked to them separately or together. They 
were crestfallen because they were now on notice that the DNI, 
two successive White House counsels, and the Vice President's 
top lawyer had weighed in strongly against destroying the 
tapes.''
    Do you recall that conversation?
    Ms. Haspel. Senator, I don't recall that specific 
conversation. However, I was aware that there were some 
objections and that is why that Jose was going to go back to 
the Director.
    Senator King. With all respect, those aren't ``some 
objections.'' Those are very straightforward prohibitions by 
your superiors to not destroy the tapes, were they not?
    Ms. Haspel. Senator I don't recall that specific 
conversation.
    Senator King. But you do know--Mr. Morell in the report 
which has been released says something similar. He said: ``The 
record is clear that Mr. Rodriguez,'' and I presume you, ``was 
aware that two White House counsels, the counsel to the Vice 
President, the DNI, the DCIA, and the HPSCI ranking member had 
either expressed opposition or reservation about the 
destruction of tapes.''
    Did you know that at the time you drafted that cable?
    Ms. Haspel. Senator, I don't believe I knew that entire 
list, but I knew there were some objections, and that is why we 
were going back to the Director of the Central Intelligence 
Agency.
    Senator King. Final question. Was it a matter of 
coincidence that this decision was made to destroy the tapes in 
the same week that two major stories appeared in American 
newspapers, the Levin Amendment was being considered, and the 
McCain Amendment was on the floor of the U.S. Senate? Was it a 
mere coincidence that that was after three years of delay, the 
decision was taken to destroy the tapes?
    Ms. Haspel. Senator, I don't believe in the Directorate of 
Operations front office we were aware of legislation. The 
lawyers may have been aware. I do not believe we were aware.
    Senator King. There's a broader question, not legislation. 
I'm talking about stories in the newspapers. There was a great 
deal of public interest just that week in the whole 
interrogation question. Were you aware of that when you made 
this decision?
    Ms. Haspel. Senator, I do not recall being aware of that.
    Chairman Burr. The Senator's time expired.
    The Chair would note at this time, since there has been a 
reference to declassification, I just want to draw a 
distinction that the Durham investigation done by the 
Department of Justice is not in the purview of the Central 
Intelligence Agency. Any decision to declassify or keep 
classified is a Department of Justice decision and I just 
wanted to separate that from the discussions about Ms. Haspel's 
background at the Agency.
    With that, the Chair recognizes Senator Lankford.
    Senator Lankford. Mr. Chairman, thank you very much.
    Ms. Haspel, thank you for your over three decades of work 
for our Nation. The lack of recognition that you've had for 
three decades from our Nation because you've served in a way 
that no one has seen. So this is an opportunity we get to be 
able to say ``thank you'' to you for a lot of years of a lot of 
service, being able to protect our Nation.
    It's also pretty remarkable, in some of the dialogue today, 
as I go through the very long list of people that have 
recommended you and that are both Republican and Democrat; and 
to be able to see the reports that have been by the Inspectors 
General about you, about previous DOJ about you, that have 
cleared you of any concerns and that have reaffirmed you. And 
whether it is President Obama's Director of the CIA John 
Brennan, or whether it was Jim Clapper, Director of National 
Intelligence for President Obama, Henry Kissinger, John 
McLaughlin, Mike Morrell, Mike Mukasey, John Negroponte, Leon 
Panetta, George Tenet--the list goes on and on of people that 
have looked at your record and that have examined it and said 
you'd be a qualified leader for that. That speaks well of your 
history and of your leadership and we appreciate that very 
much.
    Let me ask you a little bit about some ongoing threats that 
are coming at us we haven't had much time to talk about today. 
Let's talk about the very serious counter-narcotics threat 
that's coming at us and some of the changing situations that's 
happening in our hemisphere dealing with drug trafficking 
organizations, international drug trafficking in particular. 
What do you sense is a role that CIA should have in the ongoing 
work to be able to do counter-narcotics work in our hemisphere?
    Ms. Haspel. Senator, thank you very much for that question, 
and you've been a big supporter of CIA's counter-narcotics 
work. But, when I returned from my overseas posting in early 
2017, I was, frankly, shocked at what I saw was happening in 
our country, particularly in places like my home State of 
Kentucky, where there's a real crisis. I think the number is 
63,000 Americans we lost last year. We're losing 115 Americans 
a day.
    That seems to me to be an extraordinary crisis for our 
country.
    I would like to talk about this, if we could, some this 
afternoon. But, as you know, CIA does have a fairly modest 
program to try and stop the flow of drugs from coming across 
our southern border: heroin, cocaine and fentanyl. We work very 
closely in Central America and Latin America to try and stop 
that flow.
    I've been talking to our team at CIA Headquarters about 
this for several months. I've asked them to come up with some 
options to grow that program. We have extraordinary support for 
that program on this committee. But I think, in light of the 
fact that we're losing 115 Americans a day, that we're losing 
almost a generation in some places, that we have to do more. 
CIA is not the primary agency, but we can do a lot. But it has 
to be a whole of government effort.
    Senator Lankford. All right, so flip on that into the cyber 
activities and some of the cyber threats we have. Some of the 
cyber threats are changing internationally. There were criminal 
gangs in other countries that were trying to steal credit 
cards, steal information and to be able to sell that out there.
    Now there are some governments that are using the criminal 
gangs in their own country and have become this strange hybrid 
that's out there between a criminal gang sometimes and a 
government entity at other times. And we are very dependent on 
trying to be able to identify where these threats are coming 
from and who those threats are coming from.
    What is needed with CIA and what do you anticipate would be 
the need to be able to help our Nation be able to determine 
what the threats are and where they're coming from?
    Ms. Haspel. Senator, you're quite right that it's a growing 
threat and it's another area where you have to have a whole of 
government effort; and it's a very murky world, as you point 
out. But China, Russia, Iran and North Korea have very 
aggressive offensive cyber programs, both to steal secrets, but 
also in some cases to earn illicit money.
    CIA can probably make the biggest contribution in 
collection about these other countries' activities and various 
groups activities, so that we can inform the U.S. government 
agencies that have to mount our defense. Everyone in the U.S. 
government has been struggling, as all western governments are, 
on what is the most effective way to organize yourself for 
cyber defense. We're still working on that, but CIA has a big 
role. It's another area that I'd like to amplify on a bit this 
afternoon if I have the opportunity.
    Senator Lankford. I will look forward to that.
    I yield back.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Ms. Haspel, I want to thank you first of 
all for your service to our country; and also I thank you for 
your efforts on drugs. We are ground zero in West Virginia and 
we appreciate--we need everybody in this fight because it is a 
war and we must win it.
    Let me ask the first. What were your thoughts and greatest 
concerns for the United States of America after the 9/11 
attack?
    Ms. Haspel. I think for probably every American it was all 
so surreal. But what I was very worried about--and we weren't 
wrong about this--is that other attacks were being planned. So 
I think everyone in the U.S. government, probably across the 
board, but certainly in the intelligence community and FBI, we 
all felt that we had let the American people down somehow. We 
didn't know these attacks were coming. And it was very 
important to identify who headed, who was behind these attacks 
and stop future attacks.
    Senator Manchin. I think back on that day and I remember it 
very vividly as if it was just happening this morning. But I 
remember that the only thing I cared about--first of all, my 
first thought, was anybody in my family harmed that day? Next, 
anyone that I might have known or related to or thought about 
or had acquaintances with? Next of all, my final thought was, 
were any other Americans harmed? That's all I cared about. What 
was this doing?
    I thought about the history of Pearl Harbor. How did we 
react as a Nation after Pearl Harbor? I remember the cruel and 
unusual internment of Japanese-Americans, and we've never gone 
down that road again, and our thought process would have been 
there.
    But let me go another step further. After 9/11, had any 
laws or rules for procedure changed because of the attacks, 
those attacks? Did we change any procedures after that? You're 
saying you would never do it now. You said you would say no to 
the President, because that's not where we're going, that's not 
where you want the CIA to be. Were those changed after that?
    Ms. Haspel. Senator, I'm not sure I understand exactly. But 
CIA does not do interrogations. We historically have not done 
interrogations and we don't do interrogations today.
    Senator Manchin. Let me go this direction. Are there any 
other tapes that would reveal agents' identities that have been 
destroyed and is that the standard procedure? Or are there any 
tapes of interrogation that haven't been destroyed of your 
knowledge?
    Ms. Haspel. Senator, probably, I don't know. I don't know 
if there are any other tapes. I don't believe there are any 
other tapes associated with the particular interrogation 
activity that was on the 92 tapes, but I simply don't know if 
there are any other video tapes of any other activity.
    Senator Manchin. And then we'll go into this. Explain why 
you feel so strongly today that CIA should not be in the 
interrogation business? And would it have anything to do with 
basically the makeup of the CIA with the appointments, your 
appointment now for that, versus the code of conduct for the 
military? Is there a difference of why you think that the CIA 
should not be in that business and why it should be done in the 
military?
    Ms. Haspel. That's a great question. CIA historically has 
not done interrogations. We don't have interrogators, so we 
just don't have any expertise.
    Senator Manchin. Most of the questions that have been 
directed to you have been because of that.
    Ms. Haspel. Yes, that's right.
    And DOD of course does do battlefield interrogations, and 
that is why we have the Army Field Manual. We have very clear 
legal and policy guidance for those DOD interrogations, which I 
support. And then of course the FBI has its own authorities for 
interviewing terrorist suspects. And then, as we mentioned, we 
have the High-value Interrogation Group and CIA is part of 
that. We support that with substantive expertise about a 
particular group or an individual, but we don't conduct 
interrogations.
    Senator Manchin. And I know you stated strongly that's why 
you would feel very compelled to tell the President, no, this 
is not something we do and it's not our line of work.
    Ms. Haspel. I just think there are other U.S. government 
entities that are suited to holding detainees, and that isn't 
CIA.
    Senator Manchin. Let me say this about the CIA, being on 
this committee for one year and on Armed Services for six years 
prior to that. When I speak to the West Virginia citizens 
today, I brag about what you all do in the clandestine services 
and the people they provide to serve for our country to keep us 
safe. I have never, ever seen the quality of people at that 
level to make the sacrifices they make. And to make sure that 
they understand the importance and how successful and how good 
they are is that, for a country that has a target on its back 
the way the United States has had since 9/11 and probably will 
for long time, to be as safe as we have in the most troubled 
world, in the most dangerous world, with the terrorist 
mentality, I want to thank you on behalf of every West 
Virginian in this country for the job you all do.
    Ms. Haspel. Thank you, Senator.
    Chairman Burr. Thank you, Senator.
    Senator Cotton.
    Senator Cotton. Thank you, Ms. Haspel for your many decades 
of service to our country and for taking on this new role, 
despite the accusations, entirely false, you know that you 
would face from some of my colleagues in the Senate and from 
the media, some of these protesters we've seen here today. I'm 
very grateful to you, as I know that all the men and women of 
the CIA are grateful.
    I have to clear up some of the things that have been said 
here before. Senator Warner said that he worried about the 
message we would be sending if we confirmed you to the Director 
of CIA. Well, let's look at that from the other direction. What 
message would we be sending if we didn't confirm you to the CIA 
to the men and women of the CIA, to the GS-15s who may be asked 
to take on a controversial position that a future 
administration with new lawyers might not like?
    And for that matter, what message does overwhelming 
Democratic opposition to your nomination send? In fact, if you 
had been nominated by President Obama or if Hillary Clinton had 
won and nominated you to be the CIA Director, how many votes do 
you think you would have gotten to be confirmed as the CIA 
Director?
    [Pause.]
    You don't have to answer.
    [Laughter.]
    I also have to take exception to what Senator Warner said 
when he called an opinion of the Office of Legal Counsel that 
was signed off by the Attorney General of the United States as 
a ``Get Out of Jail Free'' card. Do you believe, acting under 
the legal approval of the Attorney General, that you or any 
other CIA officer should have gone to jail and you needed a 
``Get Out of Jail Free'' card? You can answer that one, please.
    Ms. Haspel. Senator, CIA follows the law.
    Senator Cotton. Exactly what I thought.
    Let's turn to the circumstances of what the 
Counterterrorism Center was doing the days you were there. I 
think Senator Collins asked an excellent sequence of questions 
that got at many of these points. I just want to tie a bow on 
some of them. These programs were, to the best of your 
understanding, approved by the Commander in Chief, legally 
approved by the Attorney General, and supported by the Director 
of the CIA, who I point out at the time was the former 
Democratic staff director of this committee; is that correct?
    Ms. Haspel. That's correct, Senator.
    Senator Cotton. You said that you were not a senior manager 
when those programs were created, is that correct?
    Ms. Haspel. That's correct.
    Senator Cotton. Was John Brennan a member of the Senior 
Intelligence Service and the Deputy Executive Director, at the 
time a senior manager in your opinion?
    Ms. Haspel. Senator, I believe Mr. Brennan was the Deputy 
EXDIR of the Agency at that time.
    Senator Cotton. And you'd consider that a senior manager 
position at the CIA?
    Ms. Haspel. I believe it's the number four position.
    Senator Cotton. For John Brennan, who was confirmed to be 
the CIA Director by the following members of this committee: 
Senator Warner, Senator Feinstein, Senator Heinrich, Senator 
Collins, Senator King, Senator Burr, Senator Manchin, Senator 
Wyden, and Senator Rubio.
    Let's turn to the question about the tapes that were 
destroyed in 2005. Did any lawyer at any time in any 
organization of the Federal Government say that there was a 
legal prohibition to destroy those tapes?
    Ms. Haspel. Senator, they did not. They were very 
consistent that there was no legal requirement to preserve the 
tapes, because of the written record.
    Senator Cotton. And it's your testimony that there is a 
written record that fully documents whatever may or may not 
have happened?
    Ms. Haspel. Senator, yes. And there were two reviews done 
of the written record, by the Office of General Counsel and 
Office of the Inspector General.
    Senator Cotton. In other words, the CIA has a record no 
different from the Federal court system, which keeps 
transcripts and allows sketch drawings, but does not allow 
video recordings in a Federal courtroom, is that correct?
    Ms. Haspel. That's correct, Senator.
    Senator Cotton. You were the chief of staff to Mr. 
Rodriguez when this happened, correct?
    Ms. Haspel. Yes.
    Senator Cotton. And at his direction, you drafted a cable 
that he later sent.
    Ms. Haspel. That's correct.
    Senator Cotton. Michael Morell, who supported Hillary 
Clinton in the last election, cleared you of any wrongdoing in 
drafting that cable?
    Ms. Haspel. He did.
    Senator Cotton. As did an investigation by the Office of 
Special Counsel and the Office of the Inspector General?
    Ms. Haspel. That investigation was closed without charges 
for Mr. Rodriguez or anyone.
    Senator Cotton. Would holding you responsible for drafting 
a cable at your boss' direction make any more sense than 
holding a Senate speechwriter responsible for the boring 
speeches Senators give on the Senate floor?
    Ms. Haspel. Senator, I'll defer to you.
    [Laughter.]
    Senator Cotton. I would submit that it does not.
    Finally, there's a lot of talk about policy guidance and 
that there was some awareness by Mr. Rodriguez that higher 
officials in the government who were political appointees had 
qualms or expressed reservations. I would say that's another 
way for which politicians don't want to take responsibilities 
when they are placed in certain positions, whether they are 
elected or appointed, and give the answers that they are 
responsible for giving yes or no and take the chips to fall 
where they may.
    Chairman Burr. The Senator's time has expired.
    Senator Harris.
    Senator Harris. Thank you.
    So let's just be clear. This hearing is not about the 
incredible importance of the service and sacrifice of the men 
and women of the CIA. That's not what this hearing is about. 
This hearing is not about the importance of the Agency's 
mission, both of which I wholeheartedly support.
    This hearing is about your suitability to be the Director 
of the CIA. And in our responsibility to participate in 
choosing who will be the next Director of the CIA, the mission 
that we have now includes understanding that who we choose will 
be a signal to the men and women of the Agency, to the American 
people, and to our neighbors around the world about our values 
as Americans on critical issues that range from our adherence 
to a rule of law, to what we prioritize in terms of 
professional accountability and what we prioritize in terms of 
our moral authority as Americans and as a country.
    So one question I've not heard you answer is: Do you 
believe that the previous interrogation techniques were 
immoral?
    Ms. Haspel. Senator, I believe that CIA officers, to whom 
you referred----
    Senator Harris. It's a yes or no answer. Do you believe the 
previous interrogation techniques were immoral? I'm not asking 
do you believe they were legal. I'm asking do you believe they 
were immoral?
    Ms. Haspel. Senator, I believe that CIA----
    Senator Harris. It's a yes or no.
    Ms. Haspel [continuing]. Did extraordinary work to prevent 
another attack on this country, given the legal tools that we 
were authorized to use.
    Senator Harris. Please answer yes or no. Do you believe in 
hindsight that those techniques were immoral?
    Ms. Haspel. Senator, what I believe sitting here today is 
that I support the higher moral standard we have decided to 
hold ourselves to.
    Senator Harris. Can you please answer the question?
    Ms. Haspel. Senator, I think I've answered the question.
    Senator Harris. No, you've not. Do you believe the previous 
techniques--now armed with hindsight, do you believe they were 
immoral, yes or no?
    Ms. Haspel. Senator, I believe that we should hold 
ourselves to the moral standard outlined in the Army Field 
Manual.
    Senator Harris. Okay, so I understand that--you have not 
answered the question, but I'm going to move on. So I 
understand that you, from previous answers, are serving as the 
authority over whether or not CIA information concerning you 
will be classified or not. Given an obvious appearance of 
conflict, will you agree to recuse yourself from the 
responsibility and the authority to make decisions about 
whether or not that information will be classified or not? Will 
you agree to recuse yourself of that responsibility and 
authority, yes or no?
    Ms. Haspel. Senator, I am following the guidelines that 
exist at CIA, and there is another declassification authority. 
It's called the IRO. I have not interfered----
    Senator Harris. Ms. Haspel, do you believe that you have 
the authority to recuse yourself?
    Ms. Haspel. I'll take that for the record. I may have the 
authority to recuse myself.
    Senator Harris. Assuming you do----
    Ms. Haspel. I'm not a lawyer. I'm not sure about that.
    Senator Harris. Assuming you do--and I believe you do--will 
you agree to recuse yourself from the responsibility and the 
authority of making decisions about what CIA information about 
you and your record will be classified or declassified?
    Ms. Haspel. Senator, if I had agreed with the proposals 
that have come up to--because people thought it would be 
advantageous to me, I think I would've been abdicating my 
responsibility to follow the rules that everyone at CIA 
follows.
    Senator Harris. Okay. And you also in this hearing have a 
responsibility to answer the questions that are being asked of 
you.
    I'm going to ask you a different question. Would you agree 
that, given this appearance of conflict or potential conflict 
around the classification or declassification of these 
documents, that--would you agree that Director Coats instead 
should have the responsibility for declassification decisions 
regarding your background?
    Ms. Haspel. Senator, I think one important thing is that 
this committee plays a unique role to review the classified 
record, and we have sent over every piece of paper we can lay 
our hands on about my classified record; all of my evaluations 
over a 33-year career. And I hope every Senator has had the 
opportunity to look at that classified material.
    Senator Harris. Indeed I have.
    Ms. Haspel. But there are----
    Senator Harris. I have another question for you then, 
because I only have a few minutes left. I only have few seconds 
left. The President has asserted that torture works. Do you 
agree with that statement?
    Ms. Haspel. Senator, I don't believe that torture works. I 
believe that in the CIA's program--and I'm not attributing this 
to enhanced interrogation techniques--I believe, as many 
people, Directors who have sat in this chair before me, that 
valuable information was obtained from senior Al-Qaeda 
operatives that allowed us to defend this country and prevent 
another attack.
    Senator Harris. Is that a yes?
    Ms. Haspel. No, it's not a yes. We got valuable information 
from debriefing of Al-Qaeda detainees, and I don't think it's 
knowable whether interrogation techniques played a role in 
that.
    Senator Harris. Thank you. My time has expired.
    Chairman Burr. The Senator's time has expired.
    Senator Cornyn.
    Senator Cornyn. Ms. Haspel, I note that one prominent 
national security expert has said that if President Obama had 
nominated you to be Director of the CIA it would be an easy 
decision to support your nomination. So it strikes me that 
you're being treated much differently than Director Brennan 
was, which Senator Cotton noted he was voted out of this 
committee by a vote of 12 to 3 and confirmed by a vote of 63 to 
44 to be CIA Director.
    So it strikes me--and this is not a question for you; this 
is an observation by me--that you and this President are being 
held to a double standard, and I think that's regrettable.
    I also remember that President Obama in 2009, when he 
declassified the Office of Legal Counsel memos that are been 
referred to here, promised the men and women of the CIA that, 
quote, ``We will protect all who acted reasonably and relied 
upon legal advice from the Department of Justice that their 
actions were lawful. They need to be fully confident that, as 
they defend the Nation, I will defend them.'' And I think this 
committee and this Senate should remember those words by 
President Obama and apply those when considering your 
confirmation.
    Senator Feinstein was kind enough about a year ago to send 
me a book by Peter Bergen called Manhunt. It's a ten-year 
history of the search for Osama bin Laden. Where as I was 
thumbing through it recently I was reminded that post-9/11 
President Bush was concerned about reports that he had received 
that Osama bin Laden and Al-Qaeda were meeting with Pakistani 
officials connected with their nuclear program, to gain access 
to a nuclear device that they might then use for a follow-on 
attack against cities like Washington, D.C.
    Without divulging classified information, can you confirm 
that there were concerns about follow-on attacks using nuclear 
devices, biological weapons, other weapons of mass destruction 
that might've killed more innocent Americans, as happened on 9/
11? Was that the environment in which you and the country were 
operating at the time?
    Ms. Haspel. Senator, there were very grave concerns on that 
front. And indeed, Al-Qaeda had those kinds of programs, 
efforts to acquire crude, dirty bombs, efforts to develop--they 
had a program, a biological weapons program. I remember the 
operative who was in charge of that. There was very deep 
concern about potential contacts--and we continue to monitor 
this very closely today--between extremists and Pakistani 
nuclear scientists.
    Senator Cornyn. So here we sit, years following the 
terrible events of 9/11, feeling very safe and secure thanks to 
the incredible work being done by the intelligence community, 
including the good men and women at the CIA, as well as the men 
and women who serve in the United States military. We're 
feeling very safe and secure and the memories of that terrible 
event are very distant.
    But it strikes me that, in addition to the double standard 
that I believe you and this President are being held to 
compared to Director Brennan and President Obama's 
Administration, that people have simply forgotten. And that's 
dangerous, to have forgotten the circumstances under which they 
were operating at the time and doing their dead level best to 
protect the country from a follow-on attack.
    I just want to note in closing that recently I had a chance 
to travel to a garden spot with the Chairman and visit with 
some of those unnamed patriots who served----
    Ms. Haspel. Thank you for doing that.
    Senator Cornyn [continuing]. In the CIA, and I was struck 
by talking to one gentleman. He was talking about his 
girlfriend that he no longer had. And I said----
    Ms. Haspel. It's a common story.
    Senator Cornyn. I said: This this must be incredibly 
difficult on marriages and on relationships and on families. 
Would you just take just a second to comment about the 
sacrifices that intelligence officers, rank and file employees 
of the CIA, make when it comes to those sorts of relationships?
    Ms. Haspel. Senator, thank you. You know, maybe I could 
start by saying I talked about how CIA's boots were the first 
on the ground in Afghanistan. We suffered the first U.S. 
casualty. But maybe it's important for the American people to 
know that CIA officers are still out there in Afghanistan. Our 
officers are out there fighting extremists, Al-Qaeda and the 
Taliban.
    We have 125 stars on our memorial wall, now. Many of 
those--it's shocking how many stars we've added. I believe we 
added seven starts to our wall last year.
    Perhaps I could cite one personal example of an officer who 
worked for me. She was the most extraordinary woman. She was 
our number one Al-Qaeda expert. I worked with her in the 
Counterterrorism Center. She was having her third baby in those 
days following 9/11. But we needed her because she had such 
deep expertise. She later worked for me on terrorism issues in 
a foreign capital.
    And then she went to Afghanistan. And she and six 
colleagues were murdered by a suicide bomber who penetrated our 
base.
    These are very real sacrifices. These are my friends and 
colleagues. All of us at CIA have a commitment and an honor-
bound obligation to uphold the memory of those officers, 
mothers who've left their children to go to the field and 
sometimes have given their all in service of this country.
    Chairman Burr. I thank Senator Cornyn.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, Ms. Haspel. You've been working with the 
Administration now for 15 months. You've had the opportunity to 
brief the President. Have you ever been alone with the 
President?
    Ms. Haspel. Senator, I'm usually there with Senator Coats, 
a brilliant analyst who delivers the actual analytic briefing, 
and usually the National Security Advisor, the Vice President.
    Senator Reed. There have been allegations, Mr. Comey one, 
that while he was alone the President asked for a personal 
pledge of loyalty. If you were ever approached by the President 
and asked for a personal pledge of loyalty, what would you 
respond?
    Ms. Haspel. Senator, my only loyalty is to the American 
people and the Constitution of the United States. I am honor-
bound and will work very hard to deliver to this President and 
his Administration the best performance and intelligence CIA 
can deliver.
    Senator Reed. And if you were approached in such a way and 
such a demand was made of you, would you inform this committee 
and the Congress that you had been so approached?
    Ms. Haspel. Senator, I've worked very closely with this 
President. I don't believe that such circumstance would ever 
occur. CIA has been treated with enormous respect and our 
expertise is valued for what we bring to the table.
    Senator Reed. If it occurred, would you inform the 
committee?
    Ms. Haspel. Senator, it's a hypothetical. I don't think 
it's going to occur. I'm very confident about that.
    Senator Reed. It does not seem to be a hypothetical. People 
have alleged that that has happened already.
    Ms. Haspel. Senator, I don't know anything about that 
conversation.
    Senator Reed. Now, Senator Harris was asking you about the 
morality of the enhanced interrogation techniques, the 
waterboarding. At the time that you were involved in it, in 
fact fairly directly, you expressed no moral concerns. In fact, 
you have suggested that it was good tradecraft and that it 
contributed to information that was developed.
    If one of your operations officers was captured and subject 
to waterboarding today or tomorrow or the next day----
    [Interruption.]
    Chairman Burr. The Senator will suspend.
    The Capitol Police will remove.
    If there are any other further disruptions, I will ask the 
Capitol Police to remove all individuals.
    The Senator can continue.
    Senator Reed. Thank you, Mr. Chairman.
    If one of your operators were captured, subjected to 
waterboarding and enhanced interrogation techniques, which you 
I believe supervised, would you consider that to be moral, 
since perhaps the other entity did not have legal restrictions, 
and good tradecraft, as you appeared to do when you were 
involved in it previously?
    Ms. Haspel. Senator, I don't believe the terrorists follow 
any guidelines or civilized norms or the law. CIA follows the 
law.
    Senator Reed. Excuse me, madam. You seem to be saying that 
you were not following civilized norms and the law or anything 
else when you were conducting those self-said activities, if 
that's the analogy you're going to draw.
    Ms. Haspel. Senator, I'm sorry? Can you----
    Senator Reed. It's very simple. You have an operations 
officer who is captured. He is being waterboarded. I've asked 
you very simply, would you determine that to be immoral and 
something that should never be done, condoned in any way, shape 
or form? Your response seems to be that civilized nations don't 
do it, but uncivilized nations do it or uncivilized groups do 
it.
    Senator Cotton. The United States----
    Senator Reed. But a civilized nation was doing it until it 
was outlawed by this Congress.
    Ms. Haspel. Senator, I would never, obviously, support 
inhumane treatment of any CIA officers. We've lost CIA officers 
over the years to terrorists. I just gave an example. Khalid 
Sheikh Mohammed personally killed a Wall Street Journal 
correspondent and filmed that.
    I don't think there's any comparison between CIA officers 
serving their country, adhering to U.S. law, and terrorists who 
by their very definition are not following anybody's law.
    Senator Reed. Finally, in the Morell report, which you've 
somewhat acknowledged, there was opposition to the destruction 
of the tapes by two White House counsels, the counsel to the 
Vice President, the DNI, the DCIA and a member of the Congress. 
And yet, those tapes were destroyed. Do you consider that to be 
insubordinate actions without the Director, in this case, Mr. 
Goss, being notified?
    Ms. Haspel. Senator, I think that consultation with the 
Director was essential, and a lesson coming out of that is the 
importance of making sure all the stakeholders have agreed to 
include Congressional oversight. There is also a leadership 
lesson: Don't let real security issues go unaddressed.
    Senator Reed. So the action was insubordinate and you would 
not countenance anyone in your organization doing something 
like that?
    Ms. Haspel. I expect my officers to bring those difficult 
issues to me and I think I have a reputation for not just 
leaving them in the inbox. I will say this: Mr. Rodriguez has 
taken full accountability for his decision, which he thought he 
was operating under his own authority.
    Senator Reed. Thank you.
    Chairman Burr. The Senator's time has expired.
    We've come to the conclusion of the open session. And I 
would duly note for the members, it's my understanding that 
we're going to have two recorded votes starting at 12:00. My 
intention is to start the closed hearing immediately after the 
second vote.
    The Vice Chairman and I would like to make some closing 
statements.
    I do want to take the opportunity, Ms. Haspel, since two 
individuals have been mentioned and they will be the subject of 
conversation in a closed session, but for the American people's 
purpose, would you share for them who Khalid Sheikh Mohammed is 
and Nashiri?
    Ms. Haspel. Chairman, thank you. Khalid Sheikh Mohammed was 
the architect and mastermind of the 9/11 attacks. His nephew, 
Ramzi Yousef, was behind the 1993 attack on the World Trade 
Center and Khalid Sheikh Mohammed financed that operation. He 
also was behind the infamous Bojinka plot in the Philippines. 
Tragically, he was the individual who personally killed a Wall 
Street Journal American correspondent and filmed that heinous 
act. He also after 9/11 carried out an attack on a synagogue in 
Tunisia, and he had other attacks planned. We were able to warn 
allies about a planned attack, for example, on Heathrow 
Airport.
    Mr. Nashiri was the emir of the attack in 2000 on the USS 
COLE, in which we lost 17 sailors. He also was behind the 
attack on a French ship, the LIMBURG, and he was the Al-Qaeda 
Chief of Operations in the Gulf and the Arabian Peninsula.
    Chairman Burr. I thank you for that. I think it's important 
to put into context, when individuals are mentioned, what their 
role was in terrorism and why they were the focus of not only 
the Agency, but law enforcement.
    With that, I'd like to recognize the Vice Chairman for any 
closing statements he'd like to make.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    First of all, I want to submit for the record, to refresh 
my colleagues' memories, the testimony of then-nominee John 
Brennan, who quite explicitly repudiated the EIT techniques and 
programs, who stated that he expressed his personal objections 
and some of his views to Agency colleagues, which I think was a 
relevant piece of information when we considered Mr. Brennan's 
testimony for those of us who decided to vote in favor of him.
    Senator Cotton. And that would be the same----
    Vice Chairman Warner. Excuse me, sir. Excuse me, sir.
    Senator Cotton. And that would be the same Mr. Brennan who 
supports her nomination.
    Chairman Burr. The Senator will suspend.
    Senator Cotton. We need the full record on the record.
    Chairman Burr. No, the Senator will suspend.
    Senator Cotton. John Brennan supports her nomination.
    Vice Chairman Warner. I appreciate that, Mr. Chairman.
    Let me also say this. I know this is something that is a 
different experience for you. You have led your life serving 
our country in the shadows. But should you be confirmed in this 
position, you have a whole different set of responsibilities 
that, candidly, I understand that perhaps nothing in your 
career has fully prepared you for.
    You have to not only earn our trust, where we have more 
exposure to your records and classified information, but you 
have to earn the trust of other members who are not on this 
panel, and folks in the House who won't even consider this. You 
also I think have to earn the trust of the American public.
    So three brief points I want to make. I appreciate the fact 
and the support you have from the Agency's workforce and the 
fact that this, your confirmation, will be the first time in 54 
years an operations officer would be confirmed to be Director.
    And I also understand what are normal procedures on 
declassification. But I think it troubles some of my colleagues 
when we do get stories that float from the press that point out 
some remarkable parts of your career--your interactions with 
Mother Teresa, the fact that you were shot at by foreign 
operatives--and there does appear to be information put forward 
by the Agency that helps you. And all--I think many of us--and 
I've reviewed most of your record. I think there's many 
extraordinary things in your record. But the willingness to 
lean forward on that declassification--not for our benefit on 
this committee, we get that. But for other members and for the 
public? I'd hope you reconsider some of your decisions made 
there.
    I also appreciate very much in my line of questioning on 
the fact that you believe at this point that the RDI program is 
not consistent with American values. I wish you would have said 
that more clearly and more directly.
    And finally, the question that if you were asked by this 
President to take an action that you believed was immoral, 
regardless of the status of a legal opinion, we finally got to 
the point that you said you would not follow that. You gave me 
an even stronger answer in private. I just feel that as you try 
to gain our trust and other Senators', for that matter the 
public's trust, you realize this is a totally different kind of 
role than you had any time in your career. And having clarity 
on these issues and having clarity on what your appointment 
will represent, and what values you'll bring to this critically 
important job, at this moment in time, is extraordinarily 
important.
    My hope and prayer will be that as we consider this 
nomination, the more you can bring us that clarity, for those 
of us who want to give you that fair consideration that you 
deserve and, candidly, the extraordinary service you provided 
our Nation, is so important. So we can make the right judgment, 
so that we can know the character of the individual who will 
take on again one of the most important jobs in our country's 
protection, and particularly at this moment in time.
    So I thank you for your testimony. I would like to see 
more. I regret some of my colleagues' comments in terms of 
mischaracterization, but that's part of the process and welcome 
to it.
    Thank you, Mr. Chairman.
    Chairman Burr. I thank the Vice Chairman.
    Senator Wyden. Mr. Chairman.
    Chairman Burr. I would ask unanimous consent to enter into 
the record two documents provided by Senator Feinstein in 
opposition to the nomination, one from myself, a statement of 
support from Attorney General Michael Mukasey. I would expand 
my unanimous consent to include any documents that are for or 
against the nomination; and I would ask unanimous consent that 
every member be given the opportunity for additional follow-on 
questions, and those QFRs would need to be in by the close of 
business tomorrow.
    Senator Wyden. Mr. Chairman.
    Chairman Burr. Yes?
    Senator Wyden. Very quickly, following up on that point you 
made, and I support that, I did have several additional 
questions for the public record, and if I could at least make 
clear, I think it's important to have those before we vote in 
the committee, those answers to the additional questions, and I 
just wanted to convey that, and I hope we can get consent for 
that, too.
    Chairman Burr. Duly noted.
    Senator Cornyn. Mr. Chairman, may I ask you a question, 
briefly?
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. I think there's been some comment made 
about committee members not getting responsive information, but 
I noticed declassified materials have been provided in a public 
setting. It is true, isn't it, that classified materials will 
be made available to members in a classified setting?
    Chairman Burr. Everything that I think has been requested 
is available to members, not to all staff. And any inquiry into 
those documents will be made available in the closed setting, 
and I stand to be here as long as we need be tonight for every 
Senator to ask the full breadth of questions that they have.
    With that, Gina, I'd like to thank you for your testimony 
today.
    Ms. Haspel. Thank you.
    Chairman Burr. And I look forward to continuing the 
conversation in the closed setting.
    Before we adjourn the open session, though, I want to add a 
few closing remarks. As you know, I'm a strong supporter of 
your nomination to be Director of the Central Intelligence 
Agency. I can think of few, if any, individuals as qualified to 
lead the Agency as you are, particularly at this challenging 
time. You may in fact be the most qualified nominee ever 
nominated for this role. You've been a leader in the field and 
at headquarters. You have the respect of the workforce, of your 
peers, of Republicans, of Democrats, of military officers, and 
of civilian security leaders. You have the courage to speak 
truth to power and you've demonstrated that courage time and 
time again. You're intimately familiar with the threats facing 
our Nation. Where others can discuss world events, you've lived 
them.
    For you, there's no learning curve. You have a vision for 
the Agency and its future. It's obviously informed by your 
career, your past experiences. But you bring a clear-eyed 
understanding of the Agency's mission going forward, and I 
think you have reemphasized that today.
    I support your nomination for all of these reasons. But I'm 
also mindful of the historic nature of your nomination and what 
it means for those first-tour case officers and junior analysts 
that will join the Agency this year and in years to come. I 
know you don't like to talk about it, so I will.
    Outside the Agency workforce, not many Americans get an 
opportunity to walk the halls of the Old Headquarters Building. 
Those who do, though, including the members and staff of this 
committee frequently enter the OHB, climb the stairs and turn 
down that hallway. As they do, they enter a series of portraits 
depicting former Directors of OSS, Central Intelligence, and 
the Central Intelligence Agency. We see them every day, as does 
the workforce. Some of those directors were loved, some were 
controversial, and some little understood the Agency they were 
asked to lead. Some made disastrous decisions out of hubris or 
inexperience, or both. But one thing is common: All of the 
portraits are men.
    Many want to make your nomination about one small piece of 
Agency's past. Most of us, though, are looking towards the 
Agency's future. I think it's important to remember Director 
Brennan's--to put in context Director Brennan's not only time 
there and his testimony, but the fact is that you're being 
criticized for not speaking up when you were there, and nor did 
he. I want to make sure that we don't hold you to a different 
standard for any reason. Avril Haines and Meroe Park and others 
who have served or are currently serving have cracked the glass 
ceiling at the Agency. You're poised to break it.
    It may be impossible to measure the importance of that 
breakthrough, but I know that your confirmation will send a 
signal to the current workforce and the workforce of the future 
that a lifetime of commitment to the Agency and its mission can 
still and will be rewarded.
    I want to thank you for your willingness to go through this 
treacherous process. I'm not sure if I was in your position 
that I would expose myself to it, but I thank you for your 
willingness to lead. I thank you for your willingness to serve.
    This hearing is now adjourned.
    [Whereupon, at 12:06 p.m., the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
